No. A-

In the

Supreme Court ofthe

Unid

States

a

GARY VICTOR DUBIN,

Petitioner,
v
SUPREME COURT OF THE STATE OF HAWAII,
Respondent.
a

APPLICATION FOR EMERGENCY STAY
SUBMITTED TO THE HONORABLE ELENA KAGAN
PENDING THE FILING OF PETITION FOR WRIT OF CERTIORARI

t

Genv VIcron DuerN
Counsel ofRecord
DUSIN Lew Oprrcos
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96818
Telephone: (aos) 537 -2300

Facsimile: (sos) 523-77 33
Cellular: (sog) 392-9191
E'Mail : gdubin@dubinlaw. net

Petitioner
Member, Supreme Court Bar

TABLE OF CONTENTS
paqe

A.

lntroduction: This is a professional death penalty disbarment case
with exceptional constitutional significance for this Court and for
every Member of the Bar

1

B. Standard of Review: There is more than a reasonable probability
that at least four Members of this Court will grant certiorari and
agree to review the merits of this case'

3

C. Proof of Due Process Violations Exists in the Record: There is

overwhelming evidence in the record below that Petitioner was
denied his Fifth and Fourteenth Amendment Due Process fair
hearing rights.

D No Proof of Any EthicatViolations Exists in the Record: There is
ovenryhelming evidence in the record below that Petitioner did

not commit any ethical violations and instead obeyed all applicable
ethical rules.

E

LegalArgument Supporting a Stay: There is ovenruhelming evidence
ln i'he redord below that Petitioner was denied a fair hearing in
violation of the Fifth and Fourteenth Amendments"
To Avoid lrreparable Harm: lrreparable harm will
result unless a stay is granted and meanwhile the balance of the
equities favors Petitioner as well as the public at large.

15

63

F. A Stay ls Needed

Declaration of John D. Waihee, lll
Declaration of Gary Victor Dubin
Appendix One: Exhibits A Through H
Appendix Two: Exhibits 1 Through 33
Proof of Service

69

TABLE OF AUTHORITIES
paqe

Aetna Life Insurance v. Lavoie,
475 U.S. S13 (1e86)......

66

In Ex parte Secombe,
19

H.*

9, 60 U.S. 9, 15 L.Ed. 565 (1856)"""

Board,
gt Hu*. 363, 984 P.2d 683 (rggg.

In re Disciplinary

..,..,.,,64

"""""r

o

In re Fisher,
rzg r.za 361 (7th cir. 1950)....

64

Kim v. Contractor's License Boatd,
a8 Hu*. 264,965 P.zd 806 (rggs)...

23

....10

65

al
65

376 U.S. 651 (1 e64)......

.,.,,.,.,.67

ii

STATEMENT OF JURISDIGTION
1. This Application for Emergency Stay is being timely submitted following
set
the Octob et 2L,2020, denial of a stay by the Hawaii Supreme Court. that Order

forth in Appendix one, Exhibit H, denying the staying of its september 9, 2020
Order of Disbarment, that Order set forth in Appendix One, Exhibit C, each entered

in case No. SCAD 19'0000561 below.

2. This Application for Emergency Stay is being timely submitted to the
Honorable Elena Kagan, the Assigned Justice supervising the Ninth Judicial

circuit, pursuant supreme court Rules 22, 23, and 33-2, in furtherance of
petitioner,s forthcoming Petition for Writ of Certiorari, to be timely fiIed pursuant

to Section 12576) of Title 28 ofthe United States Code and all applicable Rules of
this Court.
B. This Application for Emergency Stay

is being timely submitted in aid of

petitioner,s only further review remedy available to Petitioner as a matter of law,
his forthcoming timely submission of his Petition for Writ of Certiorari.

4. petitioner,
protected. by

it is submitted, has a property

interest in his law license

the Fifth and Fourteenth Amendments to the United

States

Constitution against arbitrary and capacious state action denying Petitioner a fair
hearing in disciplinary proceed,ings cond.ucted by a state supreme court, especially
those resulting in pending disbarment.

ill

b. petitioner is the only member of his family to go to college. His Father
was born on a refugee boat headed to Ellis Island from Europe

in 1901. Petitioner's

family was on welfare the first 13 years of his life. He worked hard in school'
finishing first in his class in high school, in college, and in his section in law

school. petitioner had scholarships

his entire academic

scholarship offers from every major law school

in the United

cateer, including
States to which he

applied.

6. petitioner sat for and passed the Hawaii Bar Examination, earning his
right to practice law in the Courts of the State of Hawaii, without the arbitrary and
in
capacious loss of his livelihood, to continue to practice law and by reciprocity

all other jurisdictions as well, including as a Member of this Court's Bar since
r974.

6. This Court has jurisdiction to grant the relief requested, unless the Due
process Clause

Amendments

of the Fifth and Fourteenth

is to be read and

any
amended, with the following words in brackets added, to state that "nor shall

person . [except attorneys in disciplinary

proceedings] be deprived

liberty, or property, without due process of law'"

lv

of life,

APPLICATION FOR EMERGENCY STAY
SUBMITTED TO THE HONORABLE ELENA KAGAN
PENDING THE FILING OF PETITION FOR WRIT OF CERTIOR\RI

A
Introduction
This Is a Professional Death Penalty Disbarment Case with Exceptional
Constitutional Sienificance for This Court and for Every Member of the Bar.

Petitioner, 82, an attorney with a 57-year unblemished professional record
never before having been found to have committed any ethical violation against a

client whatsoever, has been ordered cavalierly disbarred as a result of disciplinary
proceedings completely abhorrent

to established, fundamental First, Fifth and

Fourteenth Amend.ment constitutional guaranties,

in the protection of which

Petitioner has no other remedy than to urgently apply to this Court for relief.
Petitioner is only one of many attorneys, and perhaps one with the highest

national visibility, specializing

in foreclosure

defense, presently being disbarred

throughout the United States, in California, in the District of Columbia, in Illinois,

in Oregon, in Washington

State,

in Wisconsin and elsewhere, being

denied fair

hearings, in most cases simply because of their advocacy of homeowners opposing

powerful interests in their State.
This slaughter is occurring because State regulatory agencies expose attorneys
advocating unpopular causes to the potential of low visibility constitutional abuses
as shown below, while as a practical matter not being able to be properly supervised

by sky-Ievel State Justices, their cases never first going through the evidentiary
rigors of a judicial trial as other cases before being reviewed by appellate courts.
1

Petitioner's case moreover is unique as no attempt has been made to cover up
such brazen constitutional abuses throughout the record in his case, providing this

Court uniquely with the best case ever to come before

it clearly raising

such issues

and compelling your intervention,

if not triggering your constitutional

safeguard the rights of attorneys by,

it is submitted, opening up federal district court

duty to

jurisdiction to allow federal supervision of attorneys' constitutional rights to a fair
hearing, rather than as now having such fundamental rights rendered irrelevant due
to the low mathematical vagaries of certiorari petitions.
Petitioner's dual purpose in seeking review in this Court is therefore not only

for his own protection against an impending personal catastrophic loss, but

to

advocate on behalf of all Members of the Bar similarly situated to secure from this

Court the opening up of effective institutional supervisory relief in our District Courts
for disbarment cases notwithstanding present Rooker- Feldman restrictions.
Toward that end, Petitioner now irrevocably faced with the complete loss of his

law practice and his family's livelihood, seeks an immediate emergency stay pending
consideration of his forthcoming Petition for Writ of Certiorari by the entire Court.

Petitioner is respectful of the limited, valuable time of every Member of this
Court, and for that reason this Application for Emergency Stay is supported by an
Appendix divided into Two Parts: the first, much smaller, containing a few lettered
exhibits required by Court Rules and a few of special relevance, and the second, much

larger, containing numbered exhibits submitted only should Your Honor wish to
review selected record documentation to substantiate the merits of this Application.
2

The Supreme Court of the State of Hawaii is the named Respondent in this
Application since the Bar disciplinary agencies in Hawaii are considered to be an arm
of that Court and an integral part of

it, including its

sole decision'making authority

("The IODC] and. the Disciplinary Board are creatures of this Court,"

In

re

Disciplinary Board, 91 Haw. 363, 368, 984P.2d688, 693 (fggg)).
B
Standard ofReview
There Is More Than a Reasonable Probability That at Least Four Members
of This Court Will Grant Certiorari and Agree To Review the Merits of this Case.

Petitioner graduated summa cum laude with an A.B. degree in 1960 from the
University of Southern California, earning his J.D. degree cum laude from New York

University School of Law as a Root-Tilden Scholar in 1963.
Petitioner is a Member of the California State Bar (tge+), the Bar of the Ninth

Circuit Court of Appeals (1964), the Hawaii State Bar (tggZ), and the Bar of this
Court (tgZO), as well as numerous Federal District Court Bars in several States, all
of which are in the process of serving him

with Orders To Show Cause why he should

not be reciprocally disbarred, although Petitioner has never been found to have
violated any ethical duty to a client in any of those jurisdictions, except for the current

Hawaii disputed ethical charges.
Petitioner's heretofore unblemished ethical record has extended to his early
law teaching career at Stanford, Berkeley, Denver, Harvard, USC, UCLA, Texas, and
at the RAND Corporation, and being admitted pro hac vicern state and federal courts

in

Oregon, Washington State, Arizona, Nevada, New York, New Jersey, and
3

Tennessee, again without ever being disciplined for any ethical violation toward a

client or anyone else in any of those venues at any of those times either.
Petitioner's diverse legal career has also included employment with the law

film of Covington and Burling in

Washington, D.C., assisting Supreme Court

Associate Justice William O. Douglas, heading a nationwide Criminal Justice Courts

Task Force appointed to that position by President Lyndon B. Johnson, and arguing
before the International Court of Arbitration in the Hague, again without ever being

disciplined there for any ethical violation toward a client.

Petitioner is and remains proud of his professional career and his awards and
achievements, and his more than 100 appellate victories for homeowners, including

in this Court, a summary of which is set forth in Appendix One, Exhibit A.
Petitioner is also proud of his ethical standing with his clients and their many
appreciated testimonials supporting

his character and legal ability

received

unsolicited in recent years, some of which are shown in Appendix One, Exhibit B.

On September 9, 2020, however, the Hawaii Supreme Court unexpectedly
entered an Order of Disbarment against Petitioner, effective on October 9, 2020, set

forth in Appendix One, Exhibit C, the effective date subsequently extended to
November 9,202O, and after being denied reconsideration, when Petitioner requested
a stay, a stay was denied without comment, Appendix One, Exhibit H.

The Order of Disbarment states as its basis for entering a professional death
penalty against Petitioner, merely eight conclusionary charges absent any supporting
analysis, written in a manner considerably below the judicial scholarly workmanship
4

of

that Court or any Court, lacking in both detail and in consideration of all relevant

and material facts, notwithstanding the severity of the punishment.

Consequently,

in order to protect his Hawaii Bar license, Petitioner timely

moved the Hawaii Supreme Court for Reconsideration on September 21,2020, setting

forth his complete specific defenses to those eight erroneous charges, together with
extensive record documentation, further challenging the state court disciplinary
proceedings for numerous obvious prejudicial federal due process violations at every

stage

in the underlying agency

proceedings. Reconsideration was denied without

comment.

For instance, highlighting for that Court at the outset some of the most
egregious due process violations were, fi"rst the Hearing Officer was conflicted, having

an initially undisclosed conflict of interest upon his appointment, being an ongoing
opposing counsel in one of Petitioner's appellate remanded cases, his even negotiating
a settlement of that case during the disbarment proceedings, nevertheless accepting

that voluntary appointment and refusing to recuse himself when challenged,

as

shown in Appendix One, Exhibit E.

Arguably even worse, the Chairperson of the Disciplinary Board later admitted
on the record that he had met secretly

with a Board Member in advance

of the Board

disciplinary review hearing to assess the conflicted Hearing Officer's findings, which
Board Member sought him out and confided in him that that Member had a conflict
of interest being an ongoing opposing counsel of Petitioner in two current state court

appeals likely to be remanded.
5

Yet the Chairperson admitted on the record that he told that Board Member

not to disclose the conflict and concealed that fact at the Board's first hearing,
Appendix One, Exhibit F, while asking the full Board sitting around a large square
conference table, obstructing Petitioner's view, at the start of the hearing to raise

their hands if any of them had such a conflict, several doing

so,

but not that other

conflicted Member, Appendix One, Exhibit G.

The findings of the conflicted Hearing Officer which were adopted verbatim
from the prosecutor's proposed findings were then adopted verbatimby the conflicted
Board, eight of which conclusions were then adopted, supra, by the Hawaii Supreme

Court in its Order of Disbarment, none of which were supported by clear and
convincing evidence as shown below, the supposed standard for such proof in attorney

disciplinary proceedings, and actually contradicted by the record.
And those two instances subjecting Petitioner to biased decision makers is only
a small sample of the due process violations that ensued as explained below.

If this

Court were not to review this case, which seems unthinkable, it would leave the Bar
hostage to Star Chamber agency proceedings.

c
Proof of Due Process Violations Exists in the Record
There Is Overwhelming Evidence in the Record Below That Petitioner Was
Denied His Fifth and Fourteenth Amendment Due Process Fair Hearine Rights.

The record below is riddted with due process hearing violations, identified
below, far more serious and deserving of much more consideration than set forth in

the Hawaii Supreme Court's Order of Disbarment, ignored with a one-sentence
6

cryptic rejection: "Petitioner's arguments regarding alleged violations of his right to
d.ue process throughout the disciplinary process we

find them to be without merit,"

Order, page 3.

Petitioner asks Your Honor and this Court to read the following summary of
the record for yourselves.
C1

Proof of Due Process

-HearinE Violations

From the outset, the agency prosecutors abandoned any pretense in
Petitioner's cases

of impartial fact-finding in favor of

"gotcha" investigations,

assuming everything asserted against Petitioner to be true, refusing his request for

a meeting until after their petitions were fiIed, supra, and contrary to Hawaii
Disciplinary Board (DB) Rule 13, docketing the cases immediately before any
investigation whatsoeverwas undertaken by them.
The culture at the ODC for decades has been to represent complainants as

if

they were their own private clients, and to weigh their chances of promotion to be
increased by the number of suspensions or disbarments they can rack up, especially

against high profiIe attorneys like Petitioner unless accused attorneys have the right

political affiliations, while increasing the financial burden of attorneys having to
defend themselves with ironically the ODC being funded by Bar dues.

Any fair reading of the hearing transcripts reveals a complete absence of
any fact-finding effort on the part of the ODC prosecutor, at one point totally lacking
even any civility, banging his fist on the table for a
7

full minute when not getting the

answers he wanted from the Petitioner, while the Hearing Officer did nothing but look
away

There

is

also

a question of fairness and trustworthiness of the ODC's

pretrial investigation depending how long otherwise stale grievances should be able

to be raised and attorneys investigated. especially submitted anonymously,

and

belatedly burdened.

Two of the charges against Petitioner here were decades old when brought.

Other States set time limits on bringing attorney disciplinary grievance
investigations, since memories fade, witnesses die, and documents are lost.

For example, many States understandably restrict filing of grievances against
attorneys to 2 years (e.g., West Virginid, to 4 years (e.g., Nevada and Utah), to 6
years (e.g., Alabama), or to a "reasonable" time (e.g., Ohio and Texas).

Another pretrial due process right violated here was when the Petition for
Discipline and the Amended Petition for Discipline made no mention of requesting
d.isbarment,

in their concluding prayers for relief only reciting that Petitioner

be

required to take the Multistate Professional Responsibility Exam, while obliquely
adding whatever other discipline that might be imposed.

It was only at a

subsequent pre'hearing conference

that the

ODC

prosecutors threaten disbarment, which was after Petitioner had filed his position
statements, had decided

to represent himself,

had been preparing for hearing, and

most importantly, had not sought any Hawaii Supreme Court Rwle 2.22(d(Z)
confid.entiality extension relief before the time to do so had expired, which led to
8

irresponsible one-sided "disbarment" press accounts

that prematurely

devasted

Petitioner's law practice, adding tremendously to his financial burden of defending
himself.

That failure to disclose the actual recommended penalties at the outset of
charging

in

d.isciplinary proceedings rendered

the Amended Petition

below

procedurally in violation of fundamental fairness.

Given the recognized quasi'criminal nature of disciplinary proceedings, not
informing the accused of the specific potential penalties when charged is anathema

to due process of law and unheard of in all Hawaii agency proceedings except

within the ODC.
c2
Proof of Due Process Hearing Violations

Petitioner was charged with professional ethics violations in four separate and
unrelated. cases. Yet those cases were tried together in the same combined hearings

before the same Hearing Officer and where witnesses

in

each case, for the

convenience of the ODC prosecutor said to be conducting at the same time other

hearings in other cases, and for the convenience of witnesses, were taken out of order
interspersed between cases, Petitioner constantly objecting as making it very difficult

to keep track of case specifi.c testimony.
Such a smorgasbord of witness testimony not only deprived Petitioner of a

meaningful and coherent hearing as to each of the four cases, but having the
same Hearing Officer preside over all four cases at the same time, which Petitioner

I

timely objected to pursuant

to

DB RuIe

2I(d, requesting a three-person Hearing

Panel or separate Hearing Officers for each case instead, cross'contaminated the
appointed Hearing Officer's eventual decision making as

is evident by his

one-

paragraph, overlapping, concluding, malum prohibitum "adoption" explanation, to
be highlighted below.

Furthermore, as

still

another due process hearing violation of bedrock

proportions, DB Rule 9(c) requires as does due process everywhere that an appointed

Hearing Officer be free of the appearance of a conflict of interest, and if so to abstain
from hearing a case, and DB Rule 21(a) provides for a party to challenge the presiding
over a disciplinary case by such a conflicted Hearing Officer-

As soon as Petitioner recognized that Mr. Hughes, the appointed Hearing
Officer, had been opposing counsel in one of Petitioner's appellate cases, Moyle v. Y

& Y Hyup Shin Corporation. 118 Haw. 385, 191 P.3d 1062 (ZOOS), reversed in favor
of Petitioner's client, Petitioner immediately requested Mr. Hughes' recusal at the

pretrial conference.

Mr. Hughes heard the motion, filed his denial of the motion in writing,
claiming that the Moyle case had been terminated, even though Petitioner provided

with uncontroverted documentary

evidence

that the case was still active in First

Circuit Court and indeed that settlement offers were being exchanged with
Petitioner and Mr. Hughes. Mr. Hughes still refused to disqualiS' himself.

10

No objection to the recusal request as being untimely was made by Mr. Hughes.

Due to DB Rule 20(e), no motions being permitted, Petitioner could only preserve

that due process challenge for later appeal to the Board, which post-judgment he did.
Petitioner was also denied his due process right to cross-examine two material
witnesses, one subpoenaed by the ODC who refused to

testifr in person, and another

not called by the ODC - yet both of them were ostensibly adroitly permitted to
testiSr over Petitioner's objection by the Hearing Officer through the testimony of
surrogates.

First, the cast of characters to be fully identified in the next section of this
Application below, Ms. Andia, subpoenaed, ignored the ODC subpoena and the
Hearing Offi.cer simply excused her while her husband was allowed to testiSr for her

in her place.
Second,

Mr. Harkey's

alleged attorney,

Mr. Kern, who was not even

representing Mr. Harkey during the events complained of, was allowed to testify by
telephone for Mr. Harkey about what Mr. Harkey's testimony supposedly would have

been, without any attempt by the ODC

to have Mr. Harkey testify himself

by

telephone or explain why not.

Moreover, the Hearing Officer adopted the proposed findings of the ODC
prosecutor without changing a single word, which were moreover substantially
incomplete, failing to address most of the material factual issues in the case, infra,
another reason why they were untrustworthy, as if the voluntary Hearing Officer, an
opposing attorney at the time

in

one of Petitioner's cases, was abandoning his own
11

decision'making responsibilities of drafting and entering his own findings, another
due process hearing violation.

Such "adopted findings of fact and conclusions of law"

-

when finders of fact

laztly merely swallow whole proposed findings and conclusions prepared by opposing
parties as was done here -' have always been subject to great mistrust by courts.
Such mechanically "adopted findings of fact and conclusions of law" moreover

further denied Petitioner an independent decision maker, considered contrary to
sound adjudicative policy, causing disrespect for

a tribunal or agency, raising

additional concerns regarding a lackofdue process.
C3

Proof of Due Process Post-Hearing Violations
The Board on February 13, 2019, also adopted verbatim the ODC's Findings of
Fact and Recommendations which had been adopted verbatim by the Hearing Officer,

and in so doing, unknown

to Petitioner at the time, the Board Chairperson

one loud outspoken Board Member,

Mr. Horovitz,

concealed

and

from Petitioner,

subsequently admitted by them, that Mr. Horovitz had a conflict of interest as one

of two opposing counsel in two of Petitioner's cases, supra.

DB Rule 2.aG) prohibits Board Members "from taking part in any proceeding

in which a judge, similarly situated, would be required to abstain," and the Hawaii
Revised Code of Judicial Conduct, Rule 1.2, prohibits participation of a judge where

that participation presents the "appearance of impropriety," and its Rule
requires "disqualification" or "recusal" of a judge in such circumstances.

t2

2.1L

Accordingly, the Board Chairperson went around the room at the December
13, 2018 Board Hearing to consider the Hearing Officer's Report, asking

if any Board

Member had a conflict of interest adverse to Petitiorrer. supra.

Two Board Members raised their hands, Board Member Jeffrey

P.

Miller disclosing that he has been and still is an opposing attorney in one of
Petitioner's cases (SAkAI) in which Petitioner's client prevailed on appeal, stillongoing,
and the other Board Member,

Mr. O'NeiII, disclosed that he was an IRS lawyer

during the time the IRS was involved in one of the cases under review.
However, Petitioner immediately waived both conflicts of interest as not

requiring disqualification as there had been no acrimony among counsel in the
Sakai case and. Mr. O'NeiIl stated that he had no connection with the prior IRS

matter.
No other Board. Member nor the Board Chairperson made any such additional
disclosure and Petitioner recognized no other Board Member who had any conflict.

The Board., adopting verbatim on February 13, 2019 the Hearing Officer's
Report which adopted verbatim

the ODC's flawed, prosecutorial,

self'serving

version of the facts, nevertheless contrary to this Court's Rute 3.7(d) waited months

without turning in its Report to the Hawaii Supreme Court, during which time on or
about April 2,20L9 Petitionerlearnedthat another Board Member,

Mr. Horovitz,

participating in the Board's vote, had a conflict of interest as opposing counsel in

two of Petitioner's cases, sitting at the far end of a very large conference table
unrecognized by Petitioner until after the Board hearing on December 13, 2018 had
13

been adjourned, in which two cases considerable personal acrimony betweenthe two
had been ongoing.

Petitioner immediately filed

to disquali$' Mr' Horovitz and the entire

Board, seeking to set aside the Board's parroted decision of the ODC's findings.

Another Board hearing was held on April 25, 2019, to consider Petitioner's
disqualification motion, at which hearing the Board Chairperson disclosed for the

first time that Mr. Horovitz had met with him secretly before the December 13, 2018
meeting and had disclosed his conflict of interest to the Board Chairperson, who
thereafter failed to disclose it to Petitioner at the earlier December 13, 2018, Board
Meeting, although inconsistently inviting the conflicts of interest of Messrs. Miller

and O'Neill to be disclosed at that same hearing -- the Board then concluding
that Petitioner's objection was nevertheless

supposedly

untimely without explanation.

That Decision also violated the Due Process Clauses of both the Hawaii State
Constitution and the United States Constitution, not depending, for instance, upon
whether Mr. Horovitz, the disqualified Board Member, cast the deciding vote or not.

And throughout the Board's review,

it

hindered Petitioner's ability to defend

himself in many other ways, e.g., denying page
cases be briefed

limit enlargement, requiring all four

in l4-point type with double spacing throughout the opening brief

(DB Rule 24), any modifications denied, explaining in writing erroneously that that
was the requirement for Hawaii appellate briefs which

it was not and is not.

Finally, Hawaii Supreme Court Rule 2.7@) requires that any Board

vote

of the Board, yet

over

recommending sanctions requires majority approval
T4

Petitioner's objection the Board refused to announce its vote recommending the
disbarment of Petitioner and although that same Rule requires that
submit its Report to the Hawaii Supreme Court
And when

it

did,

it

promptly

it waited months before doing so.

it did not submit to the Hawaii Supreme

Court its earlier

announced and published Report, but the Board hired attorney Charlene Norris to

submit her own version of the Board Report.

The Hawaii Supreme Court at Petitioner's request then

immediately

disqualifred her due to her having represented Petitioner in the past, another ethical

violation by the Board, but the Hawaii Supreme Court refused nevertheless to strike
her penned Report in the Record as the Board Report, even though

it was not the

Board Report originally entered by the Board.

What was originally entered pursuant to the requirements of Hawaii Supreme
CourtRuIe 2.7(d) was a verbatim adoptionof the Hearing Officer's verbatim adoption
of the proposed findings and recommendation of the ODC prosecutor.
D
No Proof of Any Ethical Violations Exists in the Record
There Is Overwhelming Evidence in the Record Below That Petitioner Did Not
Commit Any Ethical Violations and Instead Obeyed All Applicable Ethical Rules.

Despite the agency targeting of Petitioner and despite all of its due process

violations in an attempt to create a false factual record of misconduct by Petitioner,
the ODC and the Board failed to do

Yet
saddled

it did nonetheless

by an increasing

so.

succeed

in convincing a busy Hawaii Supreme Court,

caseload,

by being one Justice short, and by
15

the

complications caused the Judiciary by COVID'l9, to enter its Order of Disbarment
(Appendix Two, Exhibit 1), rubberstamping eight of the ODC's and Board's adopted

findings: "we find and conclude, by clear and convincing evidence, that Petitioner
Gary V. Dubin committed the following misconduct."

Those eight conclusory charges, more verbatim parroting as identified,
scissored, andlboxedbelow, are grouped within four separate subsections.

And consulting the documentation, if thought necessary by Your Honor at this
stage in these proceeding, as set forth and as referenced below in Appendix Two, does

not even require a legal education to determine that those eight charges are all false.
D1
Were Proven To Be Untrue.
Allegations
The "Two Prior Disciplines"

"ln aggravation, Respondent Dubin has two prior disciplines," Order, page 4.

Contrary to this adopted conclusion, taken from the ODC's self'serving
narrative, Petitioner has never been disciplined for any ethical violation against

a

client in his entire l7-year career as an attorney (Appendix Two, Exhibit 2).
That is a fact, and there is nothing whatsoever contradictory in the underlying
record.

It

was therefore fundamental prejudicial error for the Hawaii Supreme Court

to adopt in aggravation the ODC's accusation of prior discipline.
There are two possible explanations for this mistake.

First, the ODC mistakenly tried to use Petitioner's quarter-century-old, 1995
federal failure-to-file income tax misdemeanors to claim prior misconduct, having
16

been bench tried and convicted of IRS misdemeanor charges in Honolulu by Visiting

California U.S. District Judge Manuel Real, recently deceased, a controversial federal

judge widely criticized for erratic and abusive behavior, even though the ODC
following a three-year investigation ruled that Petitioner under the circumstances
did not commit any professional misconduct (Appendix Two, Exhibit 3):

Based upon the information and documents obtained by our
investigation, the Reviewing Member of the Disciplinary Board has
determined that a finding of professional misconduct on your part,
regarding your 1995 misdemeanor conviction for Willful Failure to
File Income Tax Returns in violation of 26 United States Code
section 7203, is not warranted due to the unique circumstances
pertaining to your matter. [Emphasis in the originalJ
Thereafter, the California Bar Court, of whose Bar Petitioner has been a
Member since 1964, conducted their similar investigation, the Bar Court Settlement

Judge agreeing with the ODC, nevertheless within his limited authority

gave

Petitioner the minimum public reproval which when published read like approval
and not reproval (Appendix Two, Exhibit 4):

In January 1994 Dubin was convicted of violation of 26 USC section
7203 failure to fiIe federal income tax returns, from 1986 through
1988. He has since filed the returns but owed no taxes for those
years because of business losses. At about the same time he failed
to file those returns, he was audited. He received a letter from an
employee of the Internal Revenue Service stating that he was not
required to fiIe income tax returns for the years covered by the
audit.
There were no factors in aggravation. In mitigation, at about the
time of the misconduct, Dubin was under great stress because his
son had been terminally ilI and passed away in 1992. The
misconduct was due, in part to the letter he received from the IRS
stating that he was not required to file the tax returns. Also, the
misconduct did not involve clients.
L7

And thereafter, the ODC confirmed to Petitioner in writing that it would not
be seeking reciprocal discipline, and did not, since the ODC had earlier found no
professional wrongdoing by Petitioner on the same facts (Appendix Two, Exhibit 5).

Petitioner then appealed to the IRS Seattle District Office, and the IRS
apologized

to Petitioner that it was wrong and admitted that it actually

owed

Petitioner almost $100,000 for the tax years in question, and Petitioner was further
exonerated by a seven-year investigation by the American Bar Association published
as a front-page story in its Journal (Appendix T\wo, Exhibit 6).

Yet at the hearing the ODC prosecutor tried to deny that exculpatory evidence

that the ODC itself had cleared Petitioner of any wrongdoing regarding his earlier
misdemeanor convictions,

at first emphatically intentionally denying before the

Hearing Officer the fact that any such documentary evidence refuting the ODC's
aggravating circumstances claim existed

refusing to compel the ODC

to

in the ODC files, with the Hearing

Officer

produce the documents, instead placing that

burden on Petitioner, until Petitioner found and produced later in the hearing copies

of that documentation, supra, exculpatory evidence being concealed by the ODC
prosecutor in the ODC's own files (Appendix Two, Exhibit 7).
Second, the ODC presented the Hearing Officer

ODC informal admonishment

in

2004

with evidence of a 16'yearold

in a case brought by someone not even

Petitioner's client, for supposedly being late in providing an irrelevant requested
document, which notice of admonishment was ironically belatedly mailed days after

the September 11, 2001 bombing of the New York World Trade Towers when the
18

whole Country including the U.S. Post Office was closed and not sorting and
delivering mail, and the notice was received too late for Petitioner to reject when he

tried, seeking reconsideration, only to be told there was no procedure for
reconsideration (Appendix Two, Exhibit

S).

That informant admonishment was however subsequently ordered expunged

when a Special Assistant Disciplinary Counsel who brought that noncooperation
charge (playing prosecutor, judge, and jury as the ODC prosecutors like to do, selfservingly charging failure to cooperate with them), later was fi.red for bias for his own
wrongdoing pertaining to that very investigation, with all related records pertaining

thereto ordered destroyed by the State Attorney General

in Civil No. 06'1'1485

GWBC, in the Honolulu First Circuit Court, nevertheless dishonestly resurfacing at

the hearing below.

Petitioner repeats that he has never been found to have committed any
misconduct toward a client or anyone else as an aggravating factor, and that the

Order of Disbarment nevertheless erroneously adopting the ODC/Hearing
Officer/Board's erroneous adopted findings and ignoring Petitioner's unblemished

disciplinary record was prejudicial error.
D2
The DCCA "False Certifrcation" Allegations Were Proven To Be Untrue.

"Respondent knowingly misrepresented the truth on a government form; he certified
the information thereon as true. Smith/DCCA Case," Order, pages 1-2.

19

Since "knowingly" is the ABA standard that the Hawaii Supreme Court
approvingly cites in its September 9,2020 Order, page 4, as controlling its disbarment
decisions,

it is difficult to understand how the Court

came to the above conclusion in

the Smith/DCCA Case, since at the hearing the ODC presented no witnesses at all on

that issue, no witnesses whatsoever.

To understand how all this came about, one needs to consult the record
chronologically

in order to und,erstand the factual

context, which unfortunately

is completely absent from the Court's Order'
Four years ago, on March 7, 20!6, the ODC received an anonymous half-page,

typed letter signed "/s/ Joe Smith" describing himself "as a member of the public,"

with an obvious personal animus, claiming, inter alia, as follows (Appendix, Exhibit
e):

As the enclosed summary disposition order shows, the Hawaii
Intermediate Court of Appeals affirmed the revocation of the

mortgage solicitor's license of Hawaii attorney Gary Victor Dubin
(attorney number 3181) based on the fact that Gary Victor Dubin
lied
in a response to a question on his application form that asked
whether he had been convicted of a crime during the prior 20 years.
***?kRule S. (c) of the Hawaii Rules of Professional Conduct states:
"It is professional misconduct for a lawyer to: ... (c) engage_in
conduct involving d.ishonesty, fraud, d eceit or misrepresentation[.] "

When notified of the Smith letter by the ODC, Petitioner replied, explaining

that he was not aware of the mistake and that that DCCA decision and

the

subsequent decision of the ICA were not based on any finding of wrongful knowledge
or intent or lying, but were treated as mere malum prohibitumviolations without any
20

proof of wrongful intent which

is exactly how Petitioner

answered the ODC's

Amended Petition.

Frustrated by residential lending abuses while practicing foreclosure defense,
on December 4,2006, Petitioner, as a sole nonparticipating investor only, had formed

Dubin Financial, LLC, a mortgage brokerage, hiring an experienced licensed local
mortgage broker to manage the company.

Unfortunately, mortgage brokers at that time were largely unregulated, and

when Petitioner discovered that the licensed mortgage broker he had hired was
cheating borrowers and stealing from Petitioner, which was the culture of the times,

Petitioner fired him and as a matter of public record voluntarily closed Dubin
Financial in early 2009 (Appendix Two, Exhibit 10).
However, a mortgage brokerage cannot operate without a designated mortgage

solicitor in charge, so Petitioner had to hurriedly apply to become a mortgage solicitor

himself, so designated, in order to briefly maintain Dubin Financial's license, solely
for the purpose of completing a few loans already in the pipeline so as not to prejudice
any existing loan applicants.
No new business was undertaken, and Dubin Financial, LLC was closed, and

the mortgage brokerage license voluntarily terminated.

Two years later after the closing, the State Department of Commerce and
Consumer Affairs (DCClr) brought charges against Petitioner alleging his 2008
solicitor's license contained a "misrepresentation"

2L

it

deemed to be malum prohibitum

grounds for revocation of a mortgage brokerage license and a ftne, albeitillogically as

the license had already been voluntarily released two years earlier.
The basis for the belated DCCA revocation was that Petitioner's application
failed to disclose that he had been previously convicted in 1995, thirteen years earlier,
of federal failure-to-file income tax misdemeanors, supra, because one of the several

form questions asking whether an applicant had been convicted of a crime was
checked rrNorr instead of "YES," hence not disclosing that Petitioner 13 years earlier,

in 1995 had been bench tried and convicted of IRS misdemeanor charges, supra.
Petitioner explained that he did not knowingly nor intentionally check the
wrong box on the form, but that as he recalled,

it

was a long time ago, the form was

fiIled out mistakenly by a law clerk either before or after he had signed it and in any
event he had not been found by the DCCA to have knowingly done so.

Nevertheless the ODC, cavalierly denying Petitioner's request to meet first,
informed. Petitioner that they would meet

with him to discuss the issues after the

Petition for Discipline was first filed, and the ODC then proceeded to include the
Smith complaint within its January 2OI7 Petition for Discipline and its Amended

Petition for Discipline solely on the basis of the DCCA's use of the word
"misrepresentation" nine years earlier, ignoring the DCCA's stated position
nonetheless that Petitioner's intent was not at issue, and ignoring the ICA's appellate

malum prohibitum decision that

it

had not found Petitioner to have personally

intentionally misrepresented anything on his mortgage solicitor's form, and ignoring
proof of intent (mens rea) as a part of any professional ethics investigation:
22

By failing to d.isclose information on his licensing application lin
20081 Respondent violated the following provision of the Hawaii
Rules of Professional Conduct: 8.a(c) (pre 2014 version) (A lawyer
shall not engage in dishonesty, fraud, deceit or misrepresentation;
8.4(a) (pre 2014 version) (A lawyer shall not violate or attempt to
violate the rules of professional conduct, knowingly assist or induce
another to do so, or d.o so through the acts of another.)
Petitioner appropriately fiIed a Verified Answer, inter alia):
Respondent hereby responds

that he denies that there were any

findings whatsoever that Respondent made any
misrepresentationsi instead it was considered a malum

prohibitum regulatory violation, and indeed both the

DCCA
find
to
refused
recorded
prosecutor and the hearing examiner as
any intention by the Respondent or any personal wrongdoing by
the Respondent to misrepresent anything, which if anything
should be res judicata and/or collateral estoppel and/or issue
preclusion as to such a charge here based entirely upon such
rejected finding or misrepresentation.

However, the ODC petitioned for discipline against Petitioner on the sole basis

that he supposed.Iy had been found by the DCCA to have intentionally lied on his
solicitor's application and lost his appeal in the ICA).
There nevertheless was no finding whatsoever by the DCCA nor the ICA of
knowledgeable or intentional misrepresentation.
To the contrary, despite the misleading nomenclature of "misrepresentation,"

the DCCA considered itself bound by the decision of the Hawaii Supreme Court in
Kim v. Contractor's License Board, 88 Haw. 264,965 P.2d 806 (f gg8) (Appendix Two,

Exhibit 11), holding that such omission of any fi.nding of proof of knowledge or intent
was irrelevant since

it was a malum prohibitum violation, not requiring proof of any

intent (Appendix Two, Exhibit 12):
23

There was no evidence that Respondent Dubin took part in the
preparation of the mortgage broker's application of Respondent
Dubin Financial or in the submission of that application. In
addition, the was no evidence that either Lindberg or Vu consulted
Respondent Dubin regarding the contents of the application or that
Respondent Dubin had any knowledge of the contents of that
application. * * * * Proof of an untruthful statement within the
meaning of this statute does not require proof of intent to lie or
intent to not tell the truth.
Indeed, that was the stated legal position of the DCCA prosecutor throughout,
who on March 29,20II in his final argument before the DCCA Hearing Officer freely
conceded the point (Appendix Two,

Exhibit 13):

The Hawaii Supreme Court came to that conclusion [n Kim] based
on its review of Chapter 444 and the fact that there was a complete
absence of any explicit requirement of intentional state of mind on
the part of the applicant in holding that they were - basically they
were not going to read a requirement of intentional state of mind
in a statute that just talks about material misrepresentation. . .. I
believe, similarly, in this case there is no requirement of intent in
that provision. tr t( * *

I d.on't think the evidence supports a finding that he [Respondent]
intentionally tried to pull one over on the department by answering
that question no .... I mean I don't see the evidence that he was
doing this intentionally. First, because he's a smart guy and he
wouldn't think that the department was ' that they would not catch
that, so I don't' and, frankly, it was a matter of public record that
he was convicted and I think anyone in the legal community
probably knew that at the time that he applied for the license, and
in any case it is a matter of public record and also a matter of some
publicityi so I don't think Mr. Dubin would have done that with
the hope the department wouldn't know.
The publicity that the DCCA prosecutor was referring to was the fact that the

Petitioner himself at the very same time the application was being signed had been
publicizing his discredited misdemeanor convictions by publishing full page color ads

in local newspapers copying the ABA Journal report together with the letter he had
24

received from the IRS prior

to being charged, stating that he had no filing

requirement for the tax years in question, further evidence that Petitioner was not

trying to hide anything (Appendix Two, Exhibit 14).
Petitioner, the evidence at the DCCA hearing, supra, further similarly showed,
had earlier applied for a Honolulu liquor license for a convenience store of his and the

prior convictions question had been checked "yes," and the liquor license was
immediately granted nevertheless, further evidence that Petitioner was not trying to

hide anything or felt he had to hide anything, always freely acknowledging those
discredited. convictions to the entire world every chance he had to this day, trying to
erase what for some

it

seems is nevertheless indelibly etched in

their brain, which is

how public smears remain prejudicial even when, as here, the complaining witness,
the IRS, admits that was wrong.

The DCCA Hearing Officer agreed with the DCCA prosecuting attorney,
finding a malum prohibitum violation and nothing more, absent any finding of
knowledge or intent.

Petitioner appealed, arguing a mens rea defense. The ICA however affirmed,
holding knowledge or intent was not a part of the violation charged, based on the

prior Kim d,ecision rejecting a mens rea defense (Appendix Two, Exhibit 15).

No certiorari petition was filed in the Hawaii Supreme Court, Petitioner
considering the matter closed and having a primary obligation to work instead on
clients' cases, never believing that the matter would be revived a decade later via an

25

anonymous complaint to the ODC, or be taken this seriously given no finding or
knowledge or intent or wrongdoing.
Had Petitioner known that it would later be used to disbar him, he would have

certainly sought further review, for the Kim decision is largely nonsensical, just
another reason why there should be a statute of limitations in Hawaii for disciplinary

complaints as there is in other States, supra.

What finally should have resulted was ODC's Smith/DCCA Case being
dismissed with prejudice when Petitioner's former paralegal, appearing

at

the

hearing by telephone from Florida, submitted a Declaration and testified that he was
the one that fiIled out the form including the one that had checked the wrong box, not
the Petitioner (Appendix Two, Exhibit 16):

[MJy responsibility was to fill out these forms, not just this
mortgage form, but all other forms for the law firm. Mr. Dubin is
always busy, so this was my full responsibility. I filled out the
mortgage application accordingly, to my best knowledge, which
was that the conviction was overturnedi hence the exoneration of
Mr. Dubin for such conviction. And again, the Hawaii Bar, there
was no disciplinary actions taken against Mr. Dubin, nor did he
lose his licenses in any shape or form. Thus, I filled out the
application as such.

No contrary evidence of wrongful knowledge or intent was provided by the
ODC who had no witnesses at the ODC hearing, which nevertheless ultimately
submitted erroneous, proposed findings of fact and conclusions of law to the ODC
Hearing Officer accusing Petitioner of personally lying on the form, trying to do an
end run around. the DCCA unique statutory definition of truthful ("The IDCCAI

26

Hearing Officer specifically found that Respondent's answer to Question No. 8 was

'untruthful within the terms of HRS

S

4368-19(2)"'- ODC FOF #16).

The most charitable explanation for all of this linguistic confusion might be

that during the entire four years of this aggressive prosecution, the membership of
the ODC kept changing, and those who brought the charges and those who prosecuted

the charges abruptly disappeared, including at least four Chief Disciplinary Counsel
and at least three Assistant Disciplinary Counsel.

The ODC Hearing Officer after an overall lengthy seven days of hearings
nevertheless robotically adopted I00o/o verbatim the partisan findings of fact and
recommendations

of the ODC prosecutor without changing a single word, by

submitting a one-paragraph statement, embarrassingly incomprehensible, although

rejecting intent as relevant

to

disbarment yet basing disbarment upon the

"cumulative" effect of the four complaints, which the Board also circuitously
subsequently adopte d verbatim (Appendix Two, Exhibit 17):

I shall be submitting, as my report, the findings

and
recommendations of the Office of Disciplinary Counsel. As respects
the proposed findings and recommendations of Petitioner, while
researched and consistent with his position throughout the
proceeding, that the charges are "malum prohibitum" (that is,
unlawful by rule or statute, but not evidencing wrongful intent),
the conduct at issue and the cumulative complaints warrant the

result [disbarment] requested by the Office of Disciplinary
Counsel. [word in brackets added from his accompanying
recommendation to the Board]

Is there any Member of this Court or its staff that can make any sense out of
the Hearing Offi.cer's professed logic and conclusion?
27

And since the Hawaii Supreme Court itself has now completely ignored the
fourth complaint against Petitioner concerning allegations of filing an appellate brief

without record references, what does this do the Hearing Officer's reasoning and his
view that an attorney's exposure to disbarment has nothing to do with intent, but in

this case was "cumulative?"
Moreover, the Hearing Officer's findings which the Board, supra, adopted
verbatim and which by the Hawaii Supreme Court's Rules were supposed to be sent
immediately to the Hawaii Supreme Court, were not and instead changed by a newly

hired ODC staff attorney immediately thereafter disqualified as conflicted.
Instead ODC lawyers continued to pay lip service to the Hearing Officer's
adopted findings, calling its rewritten version, never formally approved

if even ever

seen by Board Members or certainly not by the Petitioner, the "Board's Report," and

submitting it to the Hawaii Supreme Court half a year late (Appendix Two, Exhibit

ls).
The Hawaii Supreme Court's finding of "knowingly" as the ABA basis for
disbarment on this record is really indefensible, and certainly not justifiable either

by the decision of the Hearing Officer nor by any requisite "cumulative" clear and
convincing evidence.
D3

The "Kern Allegations" Were Proven To Be Untrue.
"Respondent withdrew $3,500.00 of the clients'funds af a time when, based
upon Respondent's own accounting, Respondent had not yet earned those
funds." Kern/Harkey Case, Order, page 3.

When Petitioner was forced

to withdraw from representing Mr. Harkey,

(Appendix
explained. below, Mr. Harkey owed Petitioner $69,475.44 in fees and costs
Two, Exhibit 19).

It was only on Novembet 28,20L7, just
combined. omnibus hearings,

a few minutes before the conclusion of the

that the ODC prosecutor waited for the first time to

raise the $8,500.00 issue, without providing Petitioner time to investigate and
knowledgeably respond (Appendix Two, Exhibit 20):

a.

Accord.ing to my calculations, as of the date you withdrew the

$20,000 on March 7th, 20L6, you withdrew $3,350 from Mr'
Harkey's $20,000 in unearned fees.
A. I don't know if your calculations are correct. I also do not know
whether or not the accountant made a mistake in the dates, so '- ...
There could have been a mistake. After all, we're 70,000 in arrears.
I'm not even charged for this in the amended petition.
Petitioner further replied that the invoicing is done by his in'house accountant,
and there was no evidence submitted that any such mistake was knowingly made by

her or by the Petitioner or otherwise intentionally done'
Furthermore, Petitioner replied that the ODC prosecutor did not include costs
and. general excise

tax in his calculations, and lots of documented work on the case

by other members of Petitioner's law firm he noticed was inadvertently omitted from

the calculations, and replied that the invoicing dates could have been mistaken by
four d.ays, and that he would have to check his offi.ce records, but the ODC prosecutor
continued.

to repetitiously badgering him at the hearing with his usual habit of
29

banging his fist on the table, not explaining why he brought that issue up at the very
end of the hearings without giving Petitioner time to investigate.

Errors by accident committed by others, moreover, in the absence of evidence
of willfulness, does not equate to a clear and convincing, knowing ethical violation,
and.

certainly not one justifying disbarment, and such questions should not have been

reserved for the last few minutes of the hearings to prejudice Petitioner.

Nor should a contrary prosecutorial record be made by ambush.

Petitioner upon checking his records after the hearing discovered that there
was an almost two-month gap shown in the client invoice starting at the end of

January 2016 caused by lost manual time slips resulting in lost billings during that
period explaining the difference between the periodic oral reports given to the client

at his request triggering earned withdrawals, all ironically in the client's favor, and

what was being complained about at the very conclusion of the hearings with only
minutes to go.
"Respondent did not inform the client when he fully disbursed the client's
$45,000.00 from the firm's client trust account, and he did not respond to clear
inquiries from ODC regarding the matter. Kern/Harkey Case," Order, page 3.

That wild professed hearsay conclusion is wrong on both counts.

First, the ODC's only witness, the record shows, was Mr. Kern, who had no
personal knowledge of what had transpired between Mr. Harkey and the Petitioner,
who was retained by Mr. Harkey for the Nevada case only after Mr. Dubin withdrew.
30

Mr. Kern, after substituting for Mr. Dubin in the USDC Nevada case and being
rebuked with court sanctions by that Court for misbehavior and having lost the case

for Mr. Harkey, dismissed for litigation abuse, was not paid, and his motivation was
only to secure funds for himself.

While Mr. Kern did very belatedly, after Petitioner challenged his authority,

finally produce Mr. Harkey's signature with that of Ms. Nora (whose involvement is
discussed below) authorizing
20), however there was

Mr. Kern to seek information (Appendix Two, Exhibit

not only

itself described at the hearings

no proof

that that was Mr. Harkey's signature,

as a facsimile, but Petitioner had plenty of reason to

doubt it.

There was also no proof that Mr. Kern's hearsay testimony
hearings reflected Mr. Harkey's views, not mentioned

at

the

in his alleged authorization

letter, notwithstanding that Mr. Harkey was in bankruptcy at the time, yet Mr. Kern
was permitted to speak for

Mr. Harkey at the hearings

by the Hearing Offi.cer

without any foundation for his testimony and without there being any opportunity
for Petitioner to cross-examine Mr. Harkey nor any explanation why Mr. Harkey was

not also on the telephone.

The Record is fiIled with thousands of pages of email and text correspondence
between Mr. Harkey and Petitioner, too numerous to exhibit in Appendix Two, but

upon request Petitioner can make any additional part of the Record available that
any Member of this Court may wish be separately submitted.

31

Second, although the ODC prosecutor through his investigator did claim that

the Petitioner had not timely responded to his inquires, that testimony was proven

to be mistaken at the hearing and completely and expressly recanted by the ODC
investigator after being shown at the hearing a fax to him responding to his supposed
unanswered. request

for further information (one can never satisfy the

endless

requests from the ODC)

and embarrassingly withdrawn (Appendix Two, Exhibit

2l), yet

its way inexplicably

somehow made

back before the Hawaii Supreme

Court as a justification for disbarment no less.
In order to understand the truth, it is necessary to understand the chronology
of events, and why Mr. Kern was not a trustworthy firsthand witness at the hearings

(Appendix Two, Exhibit 22), and why Petitioner had to withdraw from representing

Mr. Harkey due to a Ms. Nora suddenly becoming the plaintiff in the case replacing
as Plaintiff my client Mr. Harkey as the Harkey Trust Trustee (Appendix Two,

Exhibit 23), which Petitioner testified to at the hearings and fully

documented,

summarized as follows:

Mr. Harkey, after having previously been convicted of federal fi.nancial felonies

in federal court on the U.S. Mainland and later a felon in

possession of a firearm,

serving between ten to fifteen years in federal prisons (Appendix Two, Exhibit 24),
came to Petitioner

in late 2015 thereafter with various

cases seeking pro hac uice

representation.
One of his cases had just been dismissed in Washington State based on lack of

jurisdiction and another ongoing at the time in Nevada federal district court in Las
32

Vegas, where he was the Plaintiff appeafing pro se, which after

Mr. Kern was

sanctioned by the presiding Federal District Court Judge, that case was involuntarily
dismissed with prejudice on JuIy 6,2017 (Appendix Two, Exhibit 25).

Mr. Harkey hired Petitioner first to attempt to

salvage through

reconsideration his Washington State loss, which Petitioner started

to do, but

ultimately Mr. Harkey instructed Petitioner to cease working on the Washington
State case and to concentrate on the Las Vegas action.

Petitioner applied successfully for pro hac vice status with another member of
his law film in federal district court in Las Vegas, Nevada, thoroughly researching

the case and communicating with nearly a dozen opposing Nevada counsel over
outstanding discovery and other pretrial matters, and traveling to Nevada meet with

Mr. Harkey and other local counsel, while drafting new pleadings and discovery
requests.

All of that work is detailed in the Record within Petitioner's thousands of

pages of submissions for the Kern/Harkey Case alone.

Mr. Harkey's existing wrongful foreclosure amended pleadings had been
earlier ghost written by a Midwestern attorney, Wendy Nora, who at the time was
under disciplinary investigation in her home State of Wisconsin and therefore unable
to secure pro hac vice status in Nevada, and indeed had been not

so

politely removed

by the presiding Nevada District Judge from doing any work in the Nevada case even
as a paralegal following heated objections by opposing counsel before Petitioner was

retained, her having been discovered working on the case as an alleged paralegal
sidestepping that District Court's pro hac vicerules, and then warned off the case by
33

that Court after visibly surfacing in Mr. Harkey's case, and then being subsequently
suspended. from the practice of law for two years (Appendix Two,

Exhibit 26).

During Petitioner's representation of Mr. Harkey, Mr. Harkey

signed two

written retainer agreements. Mr. Harkey, otherwise preferring to conduct his
financial affairs orally, and was at his request provided only with oral client trust
account updates, as he emphatically specifically wanted nothing financially to be in

writing, maintaining a low financial profile after his incarceration and apparently
fearful of the IRS, having no bank accounts, and all retainer funds of his being wired
to Petitioner from bank accounts that were not his.

Similarly, Mr. Harkey would principally conduct business on the telephone and

by text messaging, occasionally sending emails at least at first to Petitioner only
through a friend in Washington State.

In one such text message from Mr. Harkey, sent to Petitioner in

his

representation of him, when his retainer funds had become exhausted, Mr. Harkey

wrote Petitioner acknowledging that Petitioner had kept him orally fully informed
and up-to-date regarding his fees and costs as Mr. Harkey had requested, and that

Mr. Harkey was in the process of wiring additional funds for his Nevada litigation ("I

have already pledged to get another installment to you as soon as

I

can. A

Commitment" - dated April 2I,2016) (Appendix Two, Exhibit 27).

Petitioner, however, became ethically required

to withdraw from his

representation when Ms. Nora convinced Mr. Harkey to transfer his real property,
which was the subject of the Nevada action, to a newly formed operating trust headed
34

by her as Trustee so that she could again take control of the Nevada litigation, telling

Petitioner what to do, as a ploy overcoming her being disqualified from pro hac vice
representation

in Nevada, and Petitioner by email

on

April 25, 20L6let Ms. Nora

know why he was not going to join her in the fraud on the Nevada federal courti
As you know, no attorney can accept the relationship you propose.
You are forcing my law fi.rm to withdraw our petition for pro hac
vice appearances. I had hoped in recently emailing you that you
could work with us on the Nevada case, not that you would control
our representation and not that we would be stand-ins for you.
Your proposal is unethical and would be contrary to the rules
governing pro hac vice representation in the State of Nevada.

Thereafter contemporaneously followed a series of similar email exchanges
between and among the Petitioner (explaining further why he could not ethically
continue representing Mr. Harkey in the case) and Mr. Harkey (asking Petitioner

naively to please stay on and work with Ms. Nora behind the scenes) and Ms. Nora
(threatening Petitioner, while explaining the way she intended to control the case).
That correspondence, in the Record, is similarly voluminous. There was no way

that Petitioner was going to participate in a fraud on the Nevada District Court,

no

matter how much money he was being offered.
The discussion between Mr. Harkey and Petitioner, Mr. Harkey continuing to

beg Petitioner to stay on and work with Ms. Nora, culminated with final text
messages from Petitioner to Mr. Harkey again explaining why he could not ethically

further represent Mr. Harkey (Appendix Two, Exhibit 28).
Whereupon, Petitioner moved to withdraw as did his chosen local counsel, at

the time a Nevada State Representative and Chairman of Bernie Sanders'
35

20LG

Presidential Campaign in Nevada, himself about to run for U.S. Senate in Nevada,
who Petitioner could earlier assured, now embarrassingly, that being local counsel
would not in any way risk his receiving any bad publicity due to the Harkey litigation.

The motion to withdraw was granted by the Nevada Court who was told by
Petitioner only of irreconcilable differences between client and counsel so as not to
prejudice Mr. Harkey's case. Meanwhile, Petitioner warned Mr. Harkey that Ms.
Nora was not competent to handle his case.

Ms. Nora as Trustee replaced Petitioner with her personally selected out of
state counsel who in turn selected as his local counsel Mr. Kern, joining in on the

fraud, who together completely wrecked Mr. Harkey's case as Petitioner had
predicted, failing to cooperate in discovery, finally to the point where Mr. Harkey and

Mr. Kern were sanctioned by the Nevada District Judge who then dismissed the case

with prejudice for noncompliance with federal rules, supra. See case docket sheet
referenced above.

In desperation, Ms. Nora and Mr. Kern attempted to blame Petitioner for their
discovery failings, but the Nevada District Court was not fooled and did not agree,
and when Ms. Nora surfaced on the record as the Trustee, as Petitioner had predicted,

the Nevada District Judge wanted nothing more to do with the case and before
dismissing, entered sanctions against all of them.

Ms. Nora then placed Mr. Harkey's trust in bankruptcy ("The Harkey
Operating Trust") while appealing the dismissal by the Nevada Court, which
bankruptcy was incorrectly filed by Ms. Nora in the U.S. Bankruptcy Court in
36

Minnesota, then transferred to the U.S. Bankruptcy Court in Nevada. She was not
capable of doing anything correctly. That

part of the saga is also voluminously

documented in the Record below by Petitioner.

The bankruptcy case was opposed by the IRS as could be expected and
eventually dismissed with no discharge.
Petitioner was contacted by the Trust's bankruptcy attorney, Mr. Edstrom,
who informed Petitioner that Ms. Nora had the Trust file a claim against Petitioner
for the return of all of Mr. Harkey's paid retainer fees based on allegations from Mr.

Kern, not from Mr. HarkeY.
Whereupon, Petitioner explained the situation to Mr. Edstrom and although

Mr. Harkey's Trust (who was never Petitioner's client) was now the Debtor according

to Mr. Edstrom in fed.eral bankruptcy court and Petitioner had nevertheless been
contacted by an official bankruptcy attorney not a part of Mr. Nora's fraud and

claiming to have Mr. Harkey's approval, Petitioner provided a complete written
accounting showing way in excess of what Petitioner had been paid as Mr. Harkey
had never added his promised funds, supra, and that was the end of the matter, with

Petitioner's accounting never challenged in the Harkey Operating Trust Bankruptcy,

with all appeals from the Nevada dismissal rejected, and Ms. Nora suspension from
the practice of law by her State's disciplinary agency having become final.
The ODC meanwhile received a complaint from Ms. Nora's chosen, discredited
Iocal counsel, Mr. Kern, accusing Petitioner of failing to provide Mr. Harkey with a

written accounting, even though Mr. Harkey had instructed Petitioner not to do so.
37

When the Kern complaint was first called to Petitioner's attention by the ODC,

Ms. Preece, then Assistant Disciplinary Counsel, no longer there, had already made
up her mind to add the Kern matter to her planned Petition for Discipline, refusing

in writing to meet with Petitioner until the Kern matter was submitted to a Member
of the Disciplinary Board.

The ODC chose to take Mr. Kern's testimony by telephone at the hearing,
whose testimony regarding Petitioner's representation of
hearsay, the ODC making no attempt to call

Mr. Harkey was all

Mr. Harkey as a witness even by

telephone, ignoring the fact that Mr. Kern had brought the charges so he could self'

servingly be paid his fees. Petitioner repeatedly tried to contact Mr. Harkey but
received no reply.

This saga is all documented within the seven days of hearings and in the
resulting hearing transcripts.
Petitioner should not be prejudiced by the voluminous nature of the Record,
already probably more than desired exhibited here. However, everything in these
Motion Papers is all documented in the Record.

Mr. Kern was unable to testiff with personal knowledge regarding any of the
ODC's charges against Petitioner, producing no evidence whatsoever that Mr. Harkey

had even so instructed him to inquire or had any objections:

E.g.:

(d Mr. Kern, with respect to the requirements of Hawaii

Rules of

Professional Conduct (HRPC) Rule 1.15(d, had no personal knowledge of what the
agreement had been between Mr. Harkey and Petitioner regarding accounting for
38

hours and costs, (b) Mr. Kern, with respect to HRPC Rule 1.15(c), had no personal
knowledge of Petitioner's deposits made by Mr. Harkey into Petitioner's client trust
account, which happened to be two direct wire transfers into Petitioner's client trust
account, (c) ivtr. Kern, with respect to the requirements of HRPC Rule 1.15(d), had no

personal knowledge of notices given to Mr. Harkey by Petitioner concerning the
disbursement of fund.s from Petitioner's client trust account, and

(d Mr. Kern, with

respect to the requirements of HRPC Rule 1.4(a)(3) (misquoted by Petitioner

in its

Amended Petition), had no personal knowledge of how Petitioner had or had not kept

Mr. Harkey informed.

Mr. Kern's unsupported

hearsay testimony was moreover completely

contradicted by Petitioner and Petitioner's voluminous supporting documentation

to the contrary, including evidence

of Mr. Kern's attempted and rejected fraud on the

Nevada Court, but nevertheless the ODC's findings of fact adopted every factually
contradicted statement made by Mr. Kern at the hearings, and despite the fact that

Petitioner was bound by HRCP Rule 3.3 not to aid Mr. Kern in his and Ms. Nora's
waging of their fraud on the Nevada Court.
One need look no further to confi.rm Mr. Kern's bias than to observe his attempt

to speculate at the hearing how Petitioner's final accounting produced to Mr. Edstrom

was supposedly in miniscule error, by his challenging a few time entries which
represented an infinitesimal fraction of the overall balance of fees and costs owed to

Petitioner by Mr. Harkey, one based on more than 24 hours charged in one day, that
and a few others being clear accounting errors by Petitioner's office accountant who
39

tabulates the hours and prepares the invoices as Petitioner testifi.ed, not the
Petitioner, and another infinitesimal challenge based on the entry of an alleged
incorrect date for Petitioner's trip to Las Vegas to meet with Mr. Harkey, when in
fact accompanying airline and hotel receipts in the record showed that Petitioner's

trip dates were correct.
Mr. Kern simply did not know how to read date stamps on text

messages,

admittedly sometimes confusing, as he looked for anything to complain about.
This is certainly not a record on any clear and convincing evidence upon which
to disbar any attorney.

To attempt to do so despite the absence of any credible evidence is itself
another violation of due process and the right to a fair trial.
D4
The "Andia Charges" Were Proven To Be Untrue.
"Respondent by signing the names of his clients, withouttheir permission, in the
endorsement section of a $132,000.00 settlement check made out to them alone
and depositing it in his ctient trust account thereby gained controlover those funds."
Andia Case, Order, page 2.

The actual material facts were aII summanzed and documented for the ODC
as early as 2016

in a specially prepared Andia Fact Book

(see complete copy set

forth

in Appendix Two, Exhibits 29A,29B., and 29C) which contradict the naked conclusory
statement above.

40

For the truth is that although at first Mr. Andia demanded the entire $132,000,

claiming it was all his, not aII of the $132,000 settlement funds were actually owned
by the Andias.
Close to

fifty percent of the settlement funds Mr. Andia later had to concede

and he agreed, as did the Hearing Officer and the Board and the Hawaii Supreme
Court eventually, belonged to Petitioner.

Thus, of the 9132,000, $70,297.I3 was immediately paid to the Andias by
Petitioner once the Bank of America settlement check written on a Rhode Island

Bank cleared Petitioner's First Hawaiian Bank Client Trust Account, including
$8,000.00 otherwise by written agreement replenishing the Andias'retainer account,

also immediately paid to the Andias when Petitioner's services were terminated by

the Andias.
The ownership of the remaining $61,702,87 was initially disputed, Mr. Andia

claiming the entire $61,702.87 as his, pursuant to a claimed "flat fee" agreement.
The settlement check was supposed to have been made out to the Andias and
the Dubin Law Offices, as the Bank of America had requested and been provided with

Petitioner's W'9 IRS clearance form, and Petitioner as well as the Andias assumed
legal obligations pursuant to the settlement agreement, but when the settlement
check arrived

it was mistakenly

made payable to the Andias alone.

Petitioner consulted with officers of First Hawaiian Bank (FHB) who had to
approve any third-party check being deposited, and suggested

4t

if Petitioner

sign the

Andias' names, with his initials, they would approve the deposit into the trust
account. FHB initialed its approval on the settlement check for the deposit.

It

is erroneous to say that Petitioner thus had control over the monies, as every

attorney as well as monies held in client trust accounts is bound by Court Rules, and

it is conceded that none

of the monies left the client

trust account until Petitioner met

with Mr. Andia to discuss the distribution.
During that meeting, Mr. Andia disputed only $19,885.00 of the $6I,702,87,
and after being explained the basis for the Associates' charges, which he approved
(and later admitted in writing that he had fully approved at that early meeting), and

only then was the remaining $61,702.87 disbursed to the Dubin Law Offices.
Every Hawaii RuIe of Professional Conduct was adhered to. All disputed funds
were placed safely in Petitioner's client trust account, and the funds only removed
and were required to be removed when the clients approved the distribution.
Indeed

it would

have been a violation of our Rules not to have removed those

earned funds after Mr. Andia agreed.

More than a

full month later, Mr. Andia

changed

his mind, whereupon

Petitioner offered to put $19,885.00 back into his client trust account, but Mr. Andia
refused.

Petitioner offered to enter into Bar fee mediation or arbitration. Mr. Andia
refused, instead threatening First Hawaiian Bank and Petitioner with lawsuits.

First Hawaiian Bank sought exoneration in First Circuit Court, Judge Chang
presiding. Petitioner sought exoneration

in First Circuit Court, Judge Crandall
42

presid.ing. Both Judges ordered the Andias to show up

in their courtrooms.

The

Andias refused.

Even the Hearing Officer and the Board both ultimately agreed that the
not entitled
$G1,702,87 was correctly disputed by Petitioner and that the Andias were

to the entire amount.
These are the material facts of ownership and

full

compliance

with Hawaii

Rules of Professional Conduct, contradicting the above conclusory finding.

Neither Petitioner nor any other attorney can please every client as our courts

are the decision makers

in such cases, which is especially true in the area of

foreclosure d.efense trying

to

save homes, which traditionally understandably

generates enormous personal stress for affected homeowners, who may suffer from

lender abuses or who instinctively may and often do blame their attorneys as weII as

their judge if they lose their foreclosure case.

This has created occasional grief not only for Petitioner's law firm which
pioneered foreclosure defense in Hawaii, but for Hawaii trial courts also, as evidenced

by Foreclosure Judge Blondin in Honolulu at the end of her term as foreclosure judge
having had to require an armed deputy in her courtroom, and Judge Cardoza on Maui

beforg retiring occasionally requiring two armed deputies

in attendance in his

courtroom, and Judge Castagnetti in Honolulu last year having to stop proceedings
in her courtroom in one case to summons armed deputies to eject a yelling homeowner
from her courtroom.

43

The Hawaii Supreme Court also has not escaped on the Internet the wrath of
some foreclosed homeowners either, calling its Justices part of "the mob".

No wonder then that foreclosure defense clients generate the most Bar
regulatory complaints nationwide.

Clients are often confused by the inner-workings of the legal system, or
conclude that their judges are biased in favor of lenders, and some foreclosure defense

clients are simply dishonest, believing that by complaining against their defense
attorneys they will get their monies or their homes back.
And when the ODC gets a complaint against a foreclosure defense attorney,

it

begins a feeding frenzy, with a Neanderthal mindset contrary to the reality.

Foreclosure defense also

is not a lucrative calling. Petitioner's law firm

routinely charges an initial retainer for foreclosure defense clients, most of whom
thereafter are frequently unable to pay as the cases can continue for years, turning
cases tnto pro bono efforts, yet Petitioner's law

firm unlike many, never withdraws

from a case for nonpayment, being paid only if there is a settlement.

Mr. and Ms. Andia became Petitioner's clients on or about February 17,2012,
signing a retainer agreement for $16,500. They had not paid their mortgage for
several years and were in the process of being sued for foreclosure and eviction. Their
fi"rst retainer check was dishonored by their local bank.

After Petitioner's initial meeting with the Andias, Petitioner participated only

initially in their

case, researching and preparing a

litigation plan and for nearly four

years thereafter had absolutely no contact whatsoever with the Andias until the
44

dispute described below arose, their case being exclusively conducted by Associates

in Petitioner's law firm, the Associates being responsible for keeping track of their
hours and case costs, billing the clients, preparing court documents, attending
hearings, and communicating with the clients and opposing counsel, whereas
Petitioner or a Senior Associate will handle the trial if any as lead counsel.
Although Petitioner is a sole proprietor, he is not a sole practitioner, his law

firm hand.ling hundreds of case, for which many cases an Associate is assigned full
responsibility. Petitioner has full responsibility for his own cases only. That is how
law firms work.

The Andias' representation consisted of defending against foreclosure and
eventually the Associates in charge of their case at their request filed a Counterclaim,

which additional work including suing the Bank of America however was not a part
of their written retainer agreement nor covered by their

initial retainer.

Throughout their representation, the Andias reportedly continued to state that
they were unable to pay for their legal representation further. Petitioner's law firm,

however, continued

to

represent them

at considerable additional expense not

contemplated at the time of retention and not a part of their written legal services
agreement, what amounted to a forced contingency arrangement.

Almost four years later, Petitioner's law firm, while managing to keep the
Andias

in their home at great

savings for them otherwise

in rental

payments

estimated to be a savings of more than $120,000, and without their paying their
mortgage or property taxes or hazard insurance estimated to be a savings of $240,000,
45

and without their paying Petitioner's law firm further for almost four years saving
more than $60,000, the Bank of America offered to settle for a dismissal alone of the

Andia Counterclaim against it, while the foreclosure case was to continue with
however a likely very attractive loan modifi.cation settlement also.

It took negotiations

lasting almost a year, including a sustained mediation

effort, before the settlement was finalized by the office Associates who neglected to

inform Petitioner about all of the extra work done on the Counterclaim, on the
Mediation before retired Supreme Court Justice Duffu, or on the Settlement until
agreed upon.

The settlement as negotiated required the Bank of America to pay $132,000,

which included the Andias' attorneys' fees and costs in exchange for a dismissal of

the Counterclaim, with the settlement check to be made payable to the Andias and

to the Petitioner's law firm, the Dubin Law Offices, jointly, which is standard
settlement procedure in Hawaii lawsuit settlements, if not everywhere.

It was and is also standard

procedure everywhere, expressly reserved

Andias' written retainer agreement

in the

at Paragraph 16, that Petitioner had an

attorney's lien covering settlement proceeds giving Petitioner a lawful ownership
interest in settlement proceeds in the case:

Attorney's Lien. You hereby grant us a lien on your claims or
causes of action which are the subject of our representation, and on
any recovery or settlement thereof, for any sums owed us during or
after our repre se ntation.

46

Accordingly, local counsel for the Bank of America requested IRS W-9 forms
signed by both the Andias and by the Petitioner before its settlement check would be
released, which both the Andias and Petitioner thus signed and returned to opposing
counsel.

The settlement agreement itself placed burdens on Petitioner as consideration

for signing to agree to certain settlement terms, and the standard policy of having
settlement funds made payable to opposing parties and their attorneys is also
specifically so that opposing counsel does not subsequently seek fees and costs.

When the settlement check was received by Petitioner's office,

it

was

mistakenly made payable to the Andias only.

Petitioner was informed by the Associate in his office at that time, Richard
Forrester, who was

in charge of the Andias'foreclosure litigation

Associate Andrew Goff who had negotiated

taking over for

the settlement regarding

the

Counterclaim, that Mr. Andia for the first time was demanding aII of the settlement
monies supposedly having had a "flat fee" agreement with Petitioner, no matter how
much legal work had to be done and no matter how much costs were incurred.

Petitioner discussed the payee mistake with an offi.cer at First Hawaiian Bank
where his attorney client trust account has been located since 1982, and it was agreed

to avoid having to return the check and the accompanying delays, that Petitioner
d.eposit

the disputed funds in his attorney client trust account where they could

remain until the matter was resolved.

47

The deposit was approved by the Bank and its officer initialed the settlement
check allowing
names and

it to be deposited, requiring

initial

only that Petitioner sign the Andias'

also.

Petitioner agreed, and as he had been similarly instructed to do by First
Hawaiian Bank Private Banking Vice Presidents ever since 1982 when receiving two'
party settlement checks except usually jointly payable to Petitioner, and he deposited

the settlement check writing the names of the Andias followed by his initials

as

required by First Hawaiian Bank, with First Hawaiian Bank afterwards approving
the deposit by initialing the settlement check also.

Obviously, the disputed funds were to be kept

in Petitioner's client trust

account and not released until the dispute was resolved, which is what Petitioner and

First Hawaiian Bank intended and Petitioner did

so

until the Andias approved

of the

distribution of the funds, supra, which they subsequently did.
Previously, for about four years, Petitioner had had no contact with the Andias
whatsoever, and the responsibility to keep them informed of the status of their
foreclosure case and their fees and costs was entirely the responsibility of assigned

Associates

in Petitioner's

officei moreover the Andias had never complained to

Petitioner regarding even once about anything having to do with their foreclosure
case or the Bank of America settlement

until after the settlement check arrived.

Upon Petitioner depositing the settlement check in his attorney client trust
account, Mr. Forrester testified before the Hearing Officer that he explained to Mr.

Andia that his case was not accepted on a "flat fee" basis, providing him with a copy
48

of his signed retainer agreement showing that the "flat fee" box was not checked, at

which point Mr. Andia withdrew his flat fee allegation, yet raised

it again at the

hearing, on the biased urging of the Hearing Officer.

Petitioner timely wrote and informed the Andias of the deposit into his
attorney client trust account and their responsibility for fees and costs, also providing
them with an invoice for the total charges from 2012 through 2015 in the amount of
978,202.87, and enclosed a check for the balance due the Andias, crediting the Andias

with their initial retainer payment after their first check bounced.
Petitioner however did not charge the Andias for the more than a dozen hours
spent by Mr. Goff in mediation efforts for the Andias which ironically resulted in the

settlement, as Mr. Goff had left the law fi.rm to join the Attorney General's Office

without billing for those hours.
Mr. Forrester advised Petitioner that Mr. Andia was anxious to hide the funds

from his former wife and the State of Hawaii, wanting to keep the funds from
appearing in his name if possible, since he was behind in child support payments.
Of course, Petitioner's law firm could not agree to facilitate a fraud against the

State and refused, which greatly upset Mr. Andia, and appears to have been the
reason for his anger.

Mr. Andia was invited by Petitioner to meet to discuss the distribution of the
settlement funds in his client trust account, specifically the amount payable to the
Andias, after Mr. Andia voicing objection beforehand and at the meeting solely

49

concerning the billing rates of Petitioner's Associates, Messrs. Goff and Forrester,

which amounted to a $19,885.00 dispute.

Mr. Andia met Petitioner at Petitioner's Office clean shaven and dressed in

a

business suit, explaining at the beginning of their meeting that he, Mr. Andia, was a
successful businessman

with his own photography company. At the later hearing

before the Hearing Officer, however, he appeared unshaven with ragged clothing and

with a carefully staged homeless look straight from a Hollywood casting agency.
Petitioner explained to Mr. Andia the Associates'billing rates at the meeting
based on

their superior performance and successful result as the term "reasonable"

is defi,ned in the Hawaii Rules of Professional Conduct, and again showed Mr. Andia
a copy of the retainer agreement he signed showing that the representation was not
based on a "flat fee," but on the fees and costs incurred in his case during the past

four years, although the Andias were not even charged for the extensive year-long
mediation effort and settlement work.

Petitioner explained to Mr. Andia specifically all of the successful work that
his law firm had achieved for Mr. Andia and for his wife, keeping them in their home
since 2OL2 and securing for them a six-figure victory just on the Counterclaim alone

which was outside of the scope of their retainer agreement, without being paid for

that work, and that based on a contingency fee arrangement they would have owed
Petitioner that much or more.
Petitioner further testifuing without contradiction explained to Mr. Andia that
Messrs. Goff and Forrester apparently never provided him with a prior fee and cost
50

statement because as provided in the retainer agreement he never asked for one and

that he kept telling them that he had no more money to pay the law fi"rm for the work.
Nevertheless, his law firm continued to do the work for the Andias.

Mr. Andia at the conclusion of their meeting agreed that his proposed share of

the distribution was reasonable and withdrew his $19,885.00 objection based on
Associate billing rates and cashed his $62,297.I3 check payable from Petitioner's
Client Trust Account a few days later which he had held for weeks, as well as cashing

an g8,000.00 refund check since refusing to replenish the retainer account for the
work ahead, his also cashing that additional Petitioner's Client Trust Account check
a week or so after cashing the $62,297.13 check upon informing Petitioner that he

was changing attorneys

in their foreclosure action still

ongoing, although their

Counterclaim no longer in the case.
Upon Mr. Andia's agreement, Petitioner then and only then paid the Andias
and.

transferred the agreed upon $69,702.87 payable to the Dubin Law Offices from

the Petitioner's Client Trust Account to Petitioner's Operating Account.
Subsequently, in email correspondence with Petitioner, Mr. Andia admitted in

writing that he had agreed to the distribution ("At our meeting. you gave me your
explanation and

I said'okay"'

(emphasis addeO.

Many months later, in an email to Petitioner, Mr. Andia tried to explain away

his consent to the agreed upon distribution, without which Petitioner would never
have removed from his client trust account those monies ($fg,g8f.O0) that Mr. Andia

had already agreed were for Petitioner's law firm, Mr. Andia for the first time
51

claiming that he only agreed because he was afraid that otherwise Petitioner would
stop payment on the separate $8,000 check:

I had just received a check from you in the amount of $8,000 and
understood that if I disagreed with you in our meeting that you
would most likely put a "stop payment" on the check.

In truth, Petitioner had earlier assured Mr. Andia in writing that "If however
you wish to replace us as your counsel, the $8,000

will

be immediately released to

you".

Additionally, Mr. Andia's excuse for agreeing to the distribution was further
belied by the fact that he and his wife had belatedly cashed Petitioner's much earlier,
way larger $62,297.13 check 10 days earlier upon which no "stop payment" had been
placed.

Meanwhile, according to Mr. Andia, he decided to change his mind during a
Christmas Party attended by several unnamed attorneys, and thereafter started to
accuse Petitioner of "forgery"

in an effort to harm Petitioner, openly telling that to

local counsel for the Bank of America, to executive officers of First Hawaiian Bank,
and to other local attorneys, including filing a police report which was ignored by law

enforcement as not containing any of the elements of forgery.

Coincidentally, the list of Mr. Andia's Christmas invitees emailed to Petitioner
shows that one his sailing buddies has been an opposing client of Petitioner's law firm

who lost a major case in the Hawaii Supreme Court in 2016 which probably did not
make him very happy, 139 Haw. t67, 384 P.3d 1268 (ZOfe) (Appendix Two, Exhibit
30).
52

And. coincidentally, when Petitioner withdrew from the Andias' foreclosure
case, ironically over Mr. Andia's inconsistent filed objection nevertheless approved by

Judge Ayabe, James Hochberg, a Hawaii attorney who Petitioner had successfully

earlier sued for legal malpractice in the Honolulu First Circuit Court before Judge
Border for a client for whom Petitioner had also won the ICA appeal,2I2 Haw. App.

LEXIS 887,2012 WL1951332 Q0L2), suddenly appeared for Mr. and Ms. Andia,
entering a "special appearance" in their foreclosure case (Appendix Two, Exhibit 31),
presumably another attorney Christmas guest of Mr. Andia.

Hawaii is a small community and attorneys should be protected against case
related vendettas.

Petitioner in good. faith, responding ethically, immediately upon learning of

Mr. Andia's about face, offered to return the $19,885 to his client trust account and

to mediate or arbitrate the dispute under the auspices of the Hawaii State Bar
Association, notwithstanding Mr. Andia's having acknowledged that he was given a

full explanation of the billing charges and billing rates previously and had given to
Petitioner his approval of the distribution and having thereafter cashed both the
$62,297.13 check and

the $8,000 check given him months earlier, upon whose

agreement Petitioner relied.

Mr. And.ia, however, refused mediation or arbitration, warning that his
intention was to harm Petitioner.
Mr. Andia had been a difficult client from the beginning according to the firm's
Associates working with him. Mr. Andia throughout the foreclosure litigation was,
53

for example, extremely hostile toward the legal system and to the opposing party and

its counsel, constantly using foul language in telephone discussions and in his emails
to Petitioner's associate attorneys, writing, for instance, that he was "sick of being

bullshitted" by his lender and accused respected opposing Hawaii counsel Pat
McHenry of being "a dirt bag and a liar".

When the police refused to accuse Petitioner of forgery, the Andias then
accused

First Hawaiian Bank of financial wrongdoing, threatening to sue First

Hawaiian Bank and Petitioner, which the Andias however never did, causing First
Hawaiian Bank to file a lawsuit for its exoneration in the First Circuit Court and

alternatively having Petitioner put the disputed funds back into his client trust
account (which Petitioner

initially

agreed to do, but Mr. Andia refused), and causing

Petitioner to file his own separate lawsuit in First Circuit Court to have his deposit
of the settlement funds placed into his client

trust account approved by that Court.

Petitioner's lawsuit, assigned to Judge Crandall, was heard first. The Andias,
aware of the first hearing scheduled before Judge Crandall, did not even show up.
Judge Crandall, a very thorough judge, now retired, wanted nevertheless to hear from

the Andias, giving them their day in court, and issued an order to show cause to each
of them which was served personally on both of them to appear at the next hearing

before her, stating their objections

if

any to Petitioner's deposit of the settlement

check into his attorney client trust account and to pled their case

Petitioner and First Hawaiian Bank.

54

if any against

But neither Mr. Andia nor Ms. Andia bothered to even show

up

at

the

next hearing to which they had been formally served with an OSC, subpoenaed by
Judge Crandall to attend, and court approval for the release of Petitioner's portion
of the settlement funds went uncontested.

First Hawaiian Bank's lawsuit was next heard before Judge Chang. Again, the
Andias, timely served by First Hawaiian Bank as plaintiff, did not show up at the

first hearing

before Judge Chang, and First Hawaiian Bank following Judge

Crandall's ruling in Petitioner's case, sought to withdraw its lawsuit before Judge
Chang that sought to have the otherwise disputed funds returned to Petitioner's

Client Trust Account if

it

had in any way wrongfully approved the deposit of the

settlement check.

Petitioner and First Hawaiian Bank filed joint positions that neither did
anything wrong.
The Andias' stale claim, rejected by the Honolulu Police Department and by

First Hawaiian Bank and by Petitioner, and their failing to even show up in two First
Circuit Court courtrooms before two separate judges, one of whom had them served

with an order to show cause and subpoenas compelling their attendance, the Andias
next filed their forgery grievance with the ODC, whose personnel unfortunately not
only lack investigative training or judicial training nor expertise, but whose personal
personnel gotcha incentives historically have not placed a premium on finding the

truth unless it

advances their careers.

55

The ODC prosecutor drafted a self'serving hodgepodge of irresponsible,
blatantly false proposed findings of fact (FOF) for consideration by the Hearing
Offi.cer, most of which completely contradicted the dispositive documentation and

supporting testimony set forth above at the hearings.

E.g.t

th" "flat fee" box was not checked by the Andias on their

retainer

agreement (vs. FOF 66, 68); no attempt was made to represent that the Andias had
signed the back of the check, having to the contrary been initialed by Petitioner and
also initialed as approved. by an officer of First Hawaiian Bank (vs. FOF 91); none of
those funds were withdrawn from Petitioner's client trust account or used in any way

by anyone until the withdrawal and the distribution of those funds was approved by
the Andias, as subsequently verifi.ed by Mr. Andia in an admission against interest

in writing (v. FOF 105).
Moreover, no substantive work contrary to the ODC was undertaken by
Petitioner or any associates until five months after retention when the complaint was
served and the Associates continued to work on the case without more funds, because

the Andias said they had no money, planning to pay when the case settled (v.
FOF102); an additional $8,000 was retained only

if the Andias wanted Petitioner's

Associates to continue working on the foreclosure claims which continued after the

settlement only because the Andias agreed to settle on the Counterclaim only (v. FOF
99, 120); Petitioner never refused to put the Associates' disputed $19,885 back into

his client trust accounti months later after approving the distribution of the
settlement funds Mr. Andia simply reneged, whereupon in writing Petitioner offered
56

immediately to maintain tlne status quo ante, but that offer was refused, Mr. Andia

preferring instead to file a police report for forgery, subsequently rejected, and to
threaten First Hawaiian Bank who had approved the deposit, with suit, nor did
Petitioner ever threaten Mr. Andia with additional charges, only mentioning he was
not even charged for all of the work (v. FOF 111).
Even more revealing are the material facts that were completely ignored by
the ODC prosecutor in his draft of the proposed findings:
E.g.: there is no mention of the undisputed fact of the two lawsuits, brought

respectfully by Petitioner and by First Hawaiian Bank, in which when asked by both

presiding Judges to explain their positions regarding the money deposited in
Petitioner's client trust account and whether those monies should be returned to the
client trust account and given to the Andias, they refused to even show up in court in

either casei there is no mention of the fact that the Dubin Law Offices had
represented them in their foreclosure case for close to half a decade defending against

foreclosure and prosecuting

their Counterclaim to the point where the Bank of

America settled for $132,000, hardly the usual achievement in a foreclosure case,
after their not having paid there mortgage or a penny for fees or costs since February
2012; there is no mention of the fact that after having approved the distribution of

the settlement funds according to Mr. Andia, the Andias waited months

before

suddenly deciding to accuse Petitioner of forgeryi there is no mention of the fact that

after the Andias suddenly cried forgery, Petitioner offered to put the Associates'
disputed $19,885 back into his client trust account, offering the alternative of
57

mediation or arbitration, which offers were refused, and no mention that First
Hawaiian Bank approvingly initialed the deposit also.
Petitioner's conduct was without any intention to act contrary to the wishes of

the clients and was in conformity with the requirements of the Hawaii Rules
of Professional Conduct.

The ownership interests of both the clients and the Petitioner were fully
protected after the Bank of America, mailing the settlement check to Petitioner's

Office, the Bank having made a mistake

in not making it jointly payable as

the Settlement Agreement by its terms provided for bargained for performances by
both Petitioner and his clients, and all of that after Mr. Andia at first insisted in bad

faith

that he had no obligation to pay Petitioner anything. He wanted the

entire $132,000.00 and to hide it from his former wife so as to avoid child support.
The check was deposited in Petitioner's client trust account and kept there

until its distribution was agreed upon, pursuant to HRPC Rule

1.15(e):

When in the course of representation a lawyer is in possession of
property in which two or more persons (one of whom may be the
lawyer) claims interests, the property shall be kept separate by the
lawyer until the dispute is resolved. Disputed client funds shall be
kept in a client trust account until the dispute is resolved.

And Petitioner being bound by the balance of that same RuIe 1.15(e), after Mr

Andia approved the distribution, including the funds to be paid to Petitioner, the
Rules mandated that the funds be immediately removed from the client trust accounti
The lawyer shall promptly distribute all portions of the property as
to which the interests are not in dispute.

Not to have done so at that time would have been a HRPC ethical violation.
58

Additionally, the ODC prosecutor contended that Petitioner's published billing
rates were departed from in Andias'case. Yet nowhere in the HRPC is there a single

mention of the billable hour as controlling what clients are billed, not even found

therein once, and the Andias' retainer agreement specified fees "were subject to
periodic increases".
Moreover,

it was not the Petitioner, but the Associates working the case alone

for almost four years who were responsible for communicating with the Andias and
doing the billing, for in those years Petitioner did not even have any contact with the
And.ias whatsoever, yet now an attempt is being made to disbar vicariously.

None of the Associates were charged with any ethical violations, nor should
they or the Petitioner have been.
HRPC RuIe 1.5(a) sets forth eight factors for determining the reasonableness

of fees, and notably some of the factors can be applied only after and not before the

Iegal services are first rendered, depending, for instance, on "the time and labor
required," on "the novelty and difficulty of the questions involved," and on "the results
obtained."
And who could argue with the results obtained: $132,000 for the winning of the

Counterclaim alone after four years of effort, which the Andias wanted to run away

with, all g132,000.00 for themselves, a skillful victory for which the Andias had paid
nothing.

59

The above unsupported, conclusory finding that Petitioner violated

a

disciplinary rule in the handling of a settlement check is contradicted by the material
record facts.

"Respondent did not immediately inform the clients of the receipt of the check when he
learned of it. The invoice he subseguentlyissued to the clients on November 7, 2015
was the first bitting statement or accounting since the inception of his representation of
them in February 2012 wherein he asserfed $69,702.87 in fees and cosfs owing, based
upon an hourly rate of $385.00 an hour for associafes on the case."
Andia Case, Order, page 2.

This next conclusory ethical criticism is similarly not true. Petitioner has
already explained above with ample supporting documentation that he had no contact

with the Andias or their case for approximately four years prior to his office receiving

the settlement check, that keeping him informed was the responsibility of their
assigned Associates, and

that the Andias were immediately paid all undisputed

amounts as soon as the settlement check cleared and as Petitioner best recalls even

just shortly before that Rhode Island check cleared in his client trust account.
"That rate was unreasonable because it exceeded by $115.00 per hour the rate agreed
upon in the retainer agreement for associates and was a/so applied to one associate for
work done at a time when that associate was not licensed to practice law in this
jurisdiction". Andia Case, Order, page 2.

The Hawaii Supreme Court failed to apply the "reasonableness" standard for

judging the appropriateness of fees found in its own RuIe 1.5(d of the Hawaii Rules
of Professional Conduct, since some of the factors adding to hourly rates can only be
60

applied after and not before legal services are first rendered, depending, for instance,

on "the time and labor required," on "the novelty and difficulty of the questions
involved," and on "the results obtained."

In Andias' situation, Petitioner was paid nothing for the successful work of his

law firm for four years on the Counterclaim, ultimately yielding $132,000.00 in
settlement funds, which not only was a very successful outcome challenging loan
modification abuses, but to this day an unprecedented recovery for any homeowner.

Additionally, the Andias

in those four years while Petitioner's law

firm

pursued their Counterclaim (1) saved a total of more than $420,000.00, supra, not
paying any legal fees or having to pay alternatively for renting elsewhere, nor being
burdened with any mortgage payments or any real property tax or hazard insurance

obligations instead being paid by their lender, plus (2) escaped hundreds of thousands

of dollars more in any deficiency judgment, while being offered an attractive loan
modification terminating the foreclosure.

AII of this was reflected in the above questioned billing rates, for that is the
Ianguage of the day, the "billable hour," notwithstanding that nowhere in Rule 1.5(a)

is the "billable hour" mentioned or anywhere for that matter mentioned throughout
the Hawaii Rules of Professional Conduct. Nowhere.
When Petitioner began the practice of law

in

1964 there was no such thing as

the "billable hour" or "hourly billable rate." Instead, clients were billed based mainly
upon the agreed value oflegal services, the risk ofnonrecovery, and results obtained,

61

precisely as set forth in Rule 1.5(d, the century old language of which still comprises

the ABA standards of reasonableness to this day.

The history of the application of the ABA standard of "reasonableness" is
thoroughly explained in a paper published in the 1977 University of Pennsylvania
Law Review justifying Petitioner's billing conduct in this case (Exhibit 32).

How can any Court be allowed to impose the professional death penalty of
disbarment on an attorney without even applying its own published "reasonableness"
standards?

Finally, as for Mr. Forrester, not only was he a Member of the Nevada Bar
before being employed by Petitioner, but he became a Member of the Hawaii Bar a
few months after he started working on the case at which time thereafter the majority
of his billing on the Andia case occurred.

Moreover, why is all of this even an issue because Mr. Andia raised the same

questions

at his meeting with Petitioner shortly after the settlement

check was

received, all of this was explained to Mr. Andia, and he agreed with the billing which

he later acknowledged in written he had been explained and approved, and

it was

only then that the disputed settlement funds sitting untouched in Petitioner's Client

Trust Account were released.
"We also find the clients were never contacted or consulted regarding an amendment of
the agreed-upon rate. As a result, Respondent overcharged the clients a minimum of
$19,885.00." Andia Case, Order, page 2.

62

For all of the reasons already explained above, Petitioner had no contact with
the Andias for the approximately four years leading up to the time his office receiving

the Bank of America settlement check which fact is not contested, and

it

was not

Petitioner's responsibility, but the responsibility of the Associates assigned to the
Andias'case to keep them informed.
And, if that was not done, and there is no contrary testimony other than that

from Mr. Andia, the "agreed'upon rate," notwithstanding Mr. Andia's discredited
insistence that there was to the contrary a "flat fee" agreement only, was followed in

the retainer agreement by the language subject to periodic change.

And, in any event the amount bilted according to Hawaii's own prescribed
standards of reasonableness, supra, could not have been determined until the results

were known without possessing clairvoyance and without contradicting the laws of
physics.

And, most importantly, Mr. Andia himself admittedly in writing later that he

ultimately

agreed. upon the

biltings and the final distribution of the settlement funds

while still remaining safely in Petitioner's client trust account.

All of the above material facts, again, are painstakingly fully

documented in

the Andia Fact Book set forth in three parts within Appendix Two, Exhibit 29A,29B.,
and 29C.
E
Legal Argument Supportine a Stay
There Is Overwhelming Evidence in the Record Below That Petitioner Was
Denied a Fair Hearing in Violation of the Fifth and Fourteenth Amendments.
63

Disbarment is a professional death sentence and must be subjected to the

strictest procedural due process scrutiny, as was summarized succinctly by the

United States Court of Appeals in In re Fisher , L7g F.2d 361, 370 (1950), quoting
from Circuit Court Opinions and from the Opinions of this Court:

The disbarment of an attorney is the destruction of his
professional life, his character, and his livelihood.****tr A
removal of an attorney from practice for a period of years

entails the complete loss of a clientele with its consequent uphill
road of patient waiting to again re'establish himself in the eyes
of the public, in the good graces of the courts and his fellow
lawyers. In the meantime, his income and livelihood have ceased
to exist. * * * * * "The power, however, is not an arbitrary and
despotic one, to be exercised at the pleasure ofthe court, or from
passion, prejudice, or personal hostilityi but it is the duty of
the court to exercise and regulate it by a sound and just
judicial discretion, whereby the rights and independence of the
bar may be as scrupulously guarded and maintained by the
court, as the rights and dignity of the court itself'" [quoting In E{
parte Secombe, 19 Haw. 9, 13, 60 U.S. 9, 15, 15 L'Ed. 565 (1856)l
One could easily teach a two-semester class on due process fair hearing
requirements based on this case alone and still be unable to discuss every abuse that

Petitioner experienced and still not finish the course.
Emphasis below is placed only therefore, Iimited space permitted, on some of
the more egregious due process violations.
EI.
Petitioner Has Been Ordered Shortly To Be Disbarred on an Untrustworthy Record

The Hearing Officer adopted verbatim, not changing a single word or
punctuation mark, the partisan findings of the ODC prosecutor and so did the Board
verbatim and in part so did the Hawaii Supreme Court as set forth above.
64

Such "adopted findings of fact and conclusions of law"

- when finders of fact

merely swallow whole proposed fi.ndings and conclusions prepared by prevailing
parties as was done here, have always been subject to great constitutional mistrust
as explained by

this Court in United States v. El Paso Natural Gas Co., 376 U.S.

651, 656-657 and no. 4 (1964) (rubber stamping adopted findings "has been
denounced by every court ofappeals save one" as "an abandonment

ofthe duty and

trust" placed in judges).
Such mechanically "adopted findings

of fact and conclusions of law" are

furthermore considered contrary to a fafu hearing and to sound adjudicative policy,
causing disrespect for the tribunal, as explained by the United States Court of
Appeals for the Ninth Circuit in Photo Electronics Corp. v. Eneland, 581 F.2d 772,

776-777 (gth

Clr. 1978) ("wholesale adoption of the prevailing party's proposed

findings complicates the problems of appellate

review

[It raises] the possibility

that there was insufficient independent evaluation of the evidence and may cause
the losing party to believe that his position has not been given the consideration it
deserves. These concerns have caused us to caII for more careful scrutiny of adopted

findings . . . . We scrutinize

adopted findings by conducting a painstaking review of

the lower court proceedings and the evidence").

In adopting the prosecutor's fi.ndings verbatim, neither the ODC nor

the

Hearing Offi.cer nor the Board nor the Hawaii Supreme Court addressed the material
facts set forth above favorable to Petitioner, denying Petitioner a fair hearing.

65

E2

D^*i*i^-o-

If

Has Eloon f)-rlorarl

Shnrflrr tT^ El^ T'liol.o--orl

^-

o

Biased Po^^-rl

Petitioner. over his objection, having had an opposing attorney as his

Hearing Officer, even while settlement negotiations

in their

shared case were

ongoing, is not enough appearance of impropriety to invoke due process guaranties,

surely the presence of Mr. Horovitz, supra, on the Board, given his hidden conflict,

voting to disbar Petitioner is itself reason enough to reject disbarment, especially
consideringthat he and the Chairperson sought to hide that fact, supra.

In Aetna Life Insurance v. Lavoie, 475 U.S. 813 (1936), for instance, this Court
vacated an Alabama Supreme Court judgment because a state supreme court judge,

one of the five judges entering the judgment, was disqualified, Justices Brennan
and Blackburn finding

it irrelevant that the disqualified

judge had cast the deciding

vote, 475 U.S. at 830-831, and Justice Blackburn, with whom Justice Marshall
concurred, went even further, concluding,4TS U.S. at 831-833:

For me, Justice Embry's mere participation in the shared
enterprise of appellate decisionmaking whether or not he
ultimately wrote, or even joined, the Alabama Supreme Court's
opinion -' posed an unacceptable danger of subtly distorting the
decisionmaking process.

***t(r(

And to suggest that the author of an opinion where the fi"nal vote
is 5 to 4 somehow plays a peculiarly decisive "leading role," ante,
at828, ignores the possibility of a case where the author's powers
of persuasion produce an even larger margin of votes. It makes
little sense to intimate that if Justice Embry's dissent had led two
colleagues to switch their votes, and the final vote had been 6 to
3, Aetna would somehow not have been injured by his participation.

66

More importantly, even if Justice Embry had not written the
court's opinion, his participation in the case would have violated
the Due Process Clause. Our experience should tell us that the
concessions extracted as the price of joining an opinion may
influence its shape as decisively as the sentiments of its nominal
author. To discern a constitutionally significant difference
between the author of an opinion and the other judges who
participated in a case ignores the possibility that the collegial
decisionmaking process that is the hallmark of multimember
courts led the author to alter the tone and actual holding of the
opinion to reach a majority, or to attain unanimity
The violation of the Due Process Clause occurred when Justice
Embry sat on this case, for it was then the danger arose that his
vote and his views, potentially tainted by his interest in the
pending Blue Cross suit, would influence the votes and views of
his colleagues. The remaining events that another justice
switched his vote and that Justice Embry wrote the court's opinion
-- illustrate, but do not create, the constitutional infirmity that
requires us to vacate the judgment of the Alabama Supreme Court.
More recently, this Court in Williams v. Pennsylvania, 136 S.

a death penalty

case akin

to Petitioner's professional

sentence, confronted the same issue as

Ct. 1899

(ZOte),

death penalty disciplinary

in Lavoie, and in a 5-to-3 decision by Justice

Kennedy writing for the majority, adopted the language and the reasoning of the
concurring opinions, supra, in Lavoie, L34 S. Ct. at 144-147:
cases, the Court has not had to decide the question
whether a due process violation arising from a jurist's failure to
recuse amounts to harmless error if the jurist is on a multimember
court and the jurist's vote was not decisive. See Lavoie, supta, at
827-828, 106 S. Ct. 1580, 89 L. Ed. 2d 8% hddressing "the
question whether a decision of a multimember tribunal must be
vacated because of the participation of one member who had an
interest in the outcome of the case,rr where that member's vote

In past

was outcome determinative) [and] even if the judge in
question did not cast a deciding vote.

67

The Court has little trouble concluding that

a

due process
violation arising from the participation of an interested judge is a
defect "not amenable" to harmless-error review, regardless of
whether the judge's vote was dispositive. Puckett v. United States,
556 tr. s. 729, 747, 129 s. ct. 1423, 173 L. Ed. 2d 266 (2009)
(emphasis deleteO. The deliberations of an appellate panel, as
a general rule, are confidential. As a result, it is neither
possible nor productive to inquire whether the jurist in question
might have influenced the views of his or her colleagues during the
decisionmaking process..--- As Justice Brennan wrote in his
Lavoie concurrence,

"The description of an opinion as being 'for the

court'
joined
by a
connotes more than merely that the opinion has been
judges.
that
these
the
fact
It
reflects
participating
majority of the
judges have exchanged ideas and arguments in deciding the
case. It reflects the collective process of deliberation which
shapes the court's perceptions of which issues must be addressed
and, more importantly, how they must be addressed. And, while
the influence of any single participant in this process can never
be measured with precision, experience teaches us that each
member's involvement plays a part in shaping the courtrs
ultimate disposition." 475 [.J. 5., at 837, 106 S. Ct. 1580, 89 L. Ed.
2d 823.
These considerations illustrate, moreover, that

it

does not matter

to the
judge's
was
vote
interested
the
disposition of the case. The fact that
not dispositive may mean only that the judge was successful
in persuading most members of the court to accept his or her
position.
whether the disqualified judge's vote was necessary

Moreover, being tried twice by opposing counsel,

first at the ODC level

by

Hearing Office Hughes, and then being tried again at the Board level by Board
Member Horovitz, should shock the due process conscience of any court, especially

when no conflict disclosure or recusal statement was made at first by either
gentlemen until challenged, for instance not until after the Board Chairperson and

Mr. Horovitz when challenged admitted that they had meet secretly just before the
68

Board met to decide Petitioner's fate, they discussed Mr. Horovitz's conflict, yet said

nothing while the Board Chairperson had other attorneys on the Board otherwise raise

their hands for the same reason.
F
A Stay Is Need To Avoid Irreparable Harm
Irreparable Harm Will Result Unless a Stay Is Granted and Meanwhile
the Balance of the Equities Favors Petitioner as Well as the Public at Large.

Petitioner, 82, successfully recovering from triple bypass open heart surgery

earlier this year, is threatened imminently with the loss of his law practice which
represents his entire livelihood, his attorneys and staff will be unemployed, his more

than 300 clients invested in Petitioner's representation, a majority of whom are being
represented on a pro bono basis,
cases

will

be without representation, and more than 300

in Hawaii trial and appellate courts will be disrupted, all during a pandemic.
On the other hand, the targeted charges against Petitioner are older than 12

years (OCCe 2008+), 8 years (Andia 20t2+), and 4 years (Harkey 2016+), with no
prejudice occurring to anyone

if the Order of Disbarment

be stayed until Petitioner

can have his forthcoming Petition reviewed on the merits by the

full Court.

The equities clearly balance way on Petitioner's side.

Moreover, the granting of an emergency stay

in this

case,

it is respectfully

submitted, is equally important to this Court as well in order to preserve the status
quofrom this case becoming moot following a disciplinary death sentence.

An emergency stay will allow this Court to consider the merits of Petitioner's
claims and determine what protections are needed to protect fairness in disciplinary
69

proceedings

for all attorneys in this heretofore low visibility area of

federal

constitutional law.

Petitioner further apologizes to this Court for having to bring before it,
especially in an emergency stay motion, se factually intensive a record (rn-edd$ion
however to clear and sep arate Due Process issues) , since Petitioner has no other
means of redress afforded to attorneys in such situations.

Under this Court's existing precedent, access to our federal district courts, who

are more equipped triers of fact, are presently jurisdictionally prohibited from
reviewing such obvious constitutional violations due to the RookerFeldman doctrine,
another important procedural issue and access to justice that this Court can correct
by granting a stay and hearing this case.

Meanwhile, both the Ninth Circuit Court of Appeals and that local federal

District Court for the District of Hawaii, in which Petitioner has been a Member of
their Bars respectively since 1964 and 1982, without ever having been once charged

with any ethical violation involving a client, each Court after being informed of the
pending disbarment

of Petitioner and being presented with the issues and

documented facts set forth

in this Petition, have ordered a stay, refusing to order

reciprocal discipline, which however applies only in their jurisdictions, as follows:

The Ninth Circuit Court

of Appeals

in In re Dubin, Case No. 20-80L28, after

reviewing Petitioner's Answer there and the same materials now being submitted to

this Court, responded by Minute Order on October 9, 2020, granting Petitioner the

70

same emergency stay and advance petition relief Petitioner seeks from this Court, as

follows:
The court has received the response of Gary Victor Dubin, Esq., to
its September 10, 2020 order to show cause why he should not be
reciprocally disciplined on the basis of his disbarment by the
Hawaii Supreme Court. Reciprocal disciplinary proceedings are
stayed pending the outcome of: (f) nis pending request to Justice
Elena Kagan for a stay of his Hawaii disbarmenti and (Z) tris
contemplated petition for a writ of certiorari to the United States
Supreme Court. Respondent Dubin shall file a status report within
seven days after the resolution of his request for a stay, and a
status report within seven days after the resolution of the petition
for writ of certiorari, or within seven days after the expiration of
the time within which a petition for certiorari may be filed. Failure
to do so may result, without further notice, in the imposition of
reciprocal discipline. [rrssagoS] (DJV)
The Hawaii District Court in In re Dubin, Civil No. 20'00419'JAO'KJM, after

reviewing Petitioner's Answer there and the same materials submitted to this Court,

similarly responded by Minute Order on October 7, 2020, granting Petitioner the
same emergency stay and advance petition relief Petitioner seeks from this Court as

follows:
EO: In light of Respondent Gary Victor Dubin's representation that
he intends to seek a stay of the Hawai'i Supreme Court Order of
Disbarment pending the filing of his petition for writ of certiorari
in the U.S. Supreme Court, the Court, exercising its broad
discretion, STAYS this action. See Clinton v. Jones, 520 U.S. 681,
706'07 (fggZ) (citation omitted) (holding that district courts have
"broad discretion to stay proceedings as an incident to its power to
control its own docket")i Landis v. North American Co., 299 U.S.
248,254 (fge6) ("[T]he power to stay proceedings is incidental to
the power inherent in every court to control the disposition of the
causes on its docket with economy of time and effort for itself, for
counsel, and for litigants."). Respondent shall file a status report
within one (t) business day of the resolution of his request for stay
and/or petition for writ of certiorari. Failure to do so may result in

7I

the imposition of

reciprocal discipline. (.fUOCn

JILL

A.

OTAKE)(otakel)
Petitioner, a Member of this Court's Bar since L973, now respectfully requests the
same relief from this Court, and emergency stayl
1. to avoid otherwise catastrophic irreparable harm upon the pending liquidation

of his 57-year-old heretofore ethically unblemished law practice,
2. to avoid otherwise the total disruption to the employment of his attorneys and

staff,
3. to avoid otherwise enormous prejudice to his more than 300 clients, many of

whom are being represented pro bono,
4. to avoid otherwise the unnecessary disruption to state court calendars on all

Hawaii Islands in more than 300 cases,

5. to avoid all of the above during the current pandemic until the merits of
Petitioner's forthcoming Petition for Writ of Certiorari can be considered by this Court,
6. to avoid Petitioner's case otherwise threatened
7

.

all, of

with becoming moot, and

the above in aid of this Court's singular constitutional jurisdiction.

DATED: Honolulu, Hawaiii October 24,2020
/s/ Gary Victor Dubin
GARY VICTOR DUBIN
Counsel of Record

Petitioner

72

